THE U.S. TRUSTEE PROGRAM’S
    EFFORTS TO PREVENT
  BANKRUPTCY FRAUD AND
           ABUSE
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 03-17
             March 2003
       THE UNITED STATES TRUSTEE PROGRAM’S
  EFFORTS TO PREVENT BANKRUPTCY FRAUD AND ABUSE

                        EXECUTIVE SUMMARY

       According to the United States Bankruptcy Court, bankruptcies are at
an all-time high, with new filings reaching 1.5 million for the 12-month
period ending June 2002. The Executive Office for U.S. Trustees (EOUST),
through regional U.S. Trustees (UST), manages the bankruptcy system and
is largely responsible for maintaining the integrity of the system.
Collectively, the EOUST and the USTs constitute the U.S. Trustee Program.
The UST Program is the “watchdog” over the entire bankruptcy process and
is responsible for promoting the efficiency of the bankruptcy system and
securing the just, speedy, and economical resolution of bankruptcy cases.

       The Federal Bureau of Investigation (FBI) estimates that 10 percent of
all bankruptcy filings involve fraud, especially evasion by debtors to fully
disclose their assets. If so, there were about 100,000 cases of fraud in
Calendar Year (CY) 2001. Because bankruptcy fraud and abuse by debtors,
creditors, attorneys, and others threaten the integrity of the system, the
UST Program’s ability to deter and detect bankruptcy fraud and abuse and
make criminal fraud referrals to law enforcement or to take civil action is
critical to protecting the bankruptcy system.

      The bankruptcy process is governed by Title 11, U.S. Code, known as
the Bankruptcy Code. There are two basic types of bankruptcy filings:
liquidation under Chapter 7 of the Code and rehabilitation of the debtor
under Chapters 11, 12, and 13 of the Code. A brief description of
bankruptcy under each Chapter follows.

     •   Chapter 7 allows the liquidation (sale) of personal or business
         assets to pay debts. A private trustee appointed by a UST to
         administer the debtor’s estate distributes the proceeds to creditors.
         An eligible debtor may receive a discharge from his or her debts
         under Chapter 7, except for any debts that are prohibited from
         discharge by the Bankruptcy Code such as taxes, child support, and
         alimony payments.

     •   Chapter 11 of the Code allows a debtor, usually a business, to pay
         debts while continuing to operate. The debtor, often with the
         participation of creditors, creates a reorganization plan allowing the
         repayment of all or part of the debt. The debtor may generally




                                       i
           continue business operations pending reorganization, unless the
           court orders the appointment of a trustee.

       •   Chapter 12 of the Code allows eligible family farms to file for
           bankruptcy, reorganize the farm's business affairs, continue
           operating, and repay all or part of the farm's debts. A private
           trustee appointed by a UST typically serves as the trustee of the
           debtor's estate pending fulfillment of the debtor's repayment
           obligations under a plan confirmed by the U.S. Bankruptcy Court.

       •   Chapter 13 of the Code allows individual wage earners to
           reorganize their financial affairs under a repayment plan that must
           be completed within three to five years. To be eligible for
           Chapter 13 relief, an individual must have regular income and may
           not have more than a certain amount of debt, as set forth in the
           Code. A private trustee appointed by a UST typically serves as the
           trustee of the debtor's estate pending fulfillment of the debtor's
           repayment obligations under a plan confirmed by the Bankruptcy
           Court.

       The UST Program consists of three major organization units: the
EOUST, 21 regional offices each headed by a UST, and 95 field offices
headed by an Assistant United States Trustee (AUST). The EOUST
(1) provides general policy and legal guidance to the regional and field
offices in their implementation of federal bankruptcy laws, and (2) oversees
the Program's operations. Each UST is responsible for managing the field
offices located within his or her region. The USTs’ responsibilities include:

       •   appointing and supervising private trustees who administer
           Chapters 7, 11, 12, and 13 bankruptcy estates,1 and

       •   taking legal action to enforce the requirements of the Bankruptcy
           Code and to prevent fraud and abuse.

      Given the vulnerability of the bankruptcy system to fraud and abuse
and the UST Program’s stated key role to deter and detect such fraud and
abuse — especially during the current period of escalating bankruptcies —
the Office of the Inspector General (OIG) selected the UST Program for
audit. The objectives of our audit were to assess: (1) the management
controls implemented in UST offices to identify and eliminate fraud and
misconduct by debtors, private trustees, and others, and (2) compliance

       1
        In the event that the private trustee is unable or unwilling to serve, the U.S.
Trustee may assume the private trustee’s duties.


                                              ii
with the Government Performance and Results Act, which requires federal
agencies to measure and report on their program performance.

       To perform our audit, we interviewed EOUST officials in the Director’s
Office, Office of Review and Oversight, Office of Research and Planning, and
Office of Administration. Additionally, we conducted interviews, reviewed
documents, and analyzed information at 5 of the 21 UST regional offices:
Atlanta, Chicago, Los Angeles, New York, and Philadelphia. We selected
these five offices because collectively they referred about 56 percent of the
Program’s criminal fraud cases to law enforcement and provided a cross
section of the Program’s bankruptcy fraud and abuse control procedures and
practices. We reviewed documents relating to pending bankruptcy
legislation, fraud referral case files, civil enforcement case files, trustee
performance evaluations, semiannual report reviews, trustee final and
distribution report reviews, monthly operating reports, audits, UST field
examinations, and training.

        We found that the USTs rely substantially on the initiative of private
trustees and on tips to detect most fraud. The UST Program has begun
initiatives to target certain types of fraud, specifically the use of false
identities or false social security numbers and also unscrupulous bankruptcy
petition preparers. However, the UST Program does not have an ongoing,
systematic process to identify vulnerabilities in the bankruptcy system and it
has not established uniform internal controls to detect common, higher-risk
frauds such as a debtor’s failure to disclose all assets. In fact, the
management controls in place did not address most of the fraud indicators
identified in the UST Manual and instead focused primarily on fraud that
might be committed by trustees and their employees rather than by debtors.

       While such controls over trustee operations are necessary and are
likely to contribute to deterring fraud and abuse by trustees and their
employees — which accounted for less than one percent of UST referrals to
law enforcement over the last 15 years — they do not focus on debtor and
debtor-related fraud. As a result, the FBI’s estimated 10 percent of
bankruptcy cases that involve fraud may not be discovered, and the
UST Program’s mission to preserve the integrity of the bankruptcy system
may not be accomplished as effectively as it should.

      The primary methods used by the UST Program to deter and detect
fraud are (1) private trustees’ review of case information and (2) tips from
ex-spouses, ex-business partners, creditors, and others, who could have a
grievance with the debtor or who might be offended by the debtor’s behavior
and misuse of the bankruptcy system. Some UST regions do not rely as
extensively on trustees and tips to detect fraud. Instead, these regions have


                                      iii
implemented their own fraud detection measures such as reviewing
bankruptcy petitions and schedules of assets in an attempt to identify
concealed property. In addition to criminal fraud referrals to law
enforcement agencies, the UST Program has placed its highest priority on
filing civil lawsuits against those who attempt to abuse the bankruptcy
system, especially where criminal prosecution of a case is unlikely due to the
lower dollar value of the case or where evidence may not be substantial.
Although UST Program officials told us they never will be able to prevent or
identify all instances of fraud and abuse, they stated that civil enforcement
has been a successful initiative.

       Although the USTs view private trustees — primarily Chapter 7
trustees — as the first line of defense in detecting bankruptcy fraud, the
trustees do not always have the incentive, time, or initiative to review cases
for potential fraud. Still, trustees are in a good position to help identify
fraud and abuse in the bankruptcy system. For most debtors, the private
trustee is the only bankruptcy official with whom the debtor will interact
during the bankruptcy process. Also, trustees have access to debtors’
petitions and schedules, and they can request additional information such as
tax returns and bank statements. According to UST Program officials,
trustees can discover fraud in several ways, such as:

      •   initial review of property schedules, statements of affairs, and
          statements of current income and expenses;

      •   review of records such as financial statements and records,
          Uniform Commercial Code filings and title searches, insurance
          records, divorce files, bank loan files, proofs of claim, and tax
          returns;

      •   interview of the debtor at a required meeting of creditors; and

      •   complaints or tips from third parties to the private trustee.

      The AUSTs at the five regional offices we audited stated that in
addition to the private trustees as the first line of defense against fraud, the
UST Program relies substantially on complaints or tips from the public to
detect instances of bankruptcy fraud. Because the UST Program data did
not indicate what percentage of the UST referrals to law enforcement
authorities were based on tips, we reviewed the fraud referrals made in
FYs 1999 to 2001. We reviewed all the referrals made during these three




                                        iv
years, except in one large-volume2 regional office where we sampled the
referrals. In total, our sample included 302 referrals for the five regional
offices that we audited. We reviewed the case files for each fraud referral to
determine the method of detection. We found that about 48 percent of
fraud referrals to law enforcement resulted from tips from creditors,
ex-spouses, ex-partners, and victims. Other cases were mostly detected by
private trustees and sometimes by the UST reviews of debtors’ records. The
predominant source of fraud cases was in Chapter 7 filings, which accounted
for over 70 percent of all bankruptcy filings in 2001, although other Chapters
were found to be vulnerable to fraud.

       In addition to relying on the initiative of trustees and the public to
identify and report suspected fraud, the UST Program has begun to
emphasize civil lawsuits in addition to referrals for criminal prosecution. The
UST Program refers to these civil lawsuits as civil enforcement actions. Civil
enforcement action may be taken by the UST against a debtor without
referring the case to a law enforcement agency for investigation. The USTs
or another interested party must first identify the benefit of the fraud and
then select the appropriate civil enforcement action to deny that benefit.
The most common benefits of bankruptcy fraud include: (1) an automatic
stay, which prevents a creditor from pursuing any action against the debtor
or the property of the estate to collect or enforce a pre-petition debt; (2) a
discharge, which removes the debtor’s obligation to pay a debt; and
(3) creditor inertia where a creditor writes off a debt upon learning that a
bankruptcy case has been filed and abandons collection efforts even if the
case is subsequently dismissed. In a civil lawsuit, the UST or other
interested party files a motion or complaint with the court. A bankruptcy
court judge hears the case and issues a court order outlining the findings of
the court.

      Another part of the UST Program’s oversight responsibilities include
establishing controls to ensure that trustees and their employees do not
embezzle funds or misappropriate property from the bankruptcy estates
entrusted to them. The management controls directly implemented by the
UST Program are primarily designed to detect fraud committed by trustees
and their employees rather than by debtors or others. The controls
established by the Program to detect trustee-related fraud include:
(1) review of the trustee’s semiannual report, which provides information on
the Chapter 7 trustee’s financial management, internal controls,
organizational effort and legal administration of cases administered by the


      2
         The Los Angeles Regional Office made 2,834 referrals. Some USTs explained that
other regions made fewer referrals because they screened out those less likely to be
successfully prosecuted.


                                           v
trustee; (2) review of cash receipts and disbursements reports; (3) review of
the trustee final report, which certifies that all assets have been liquidated
and are properly accounted for and that funds of the estate are available for
distribution; (4) review of the trustee final account, which certifies that
funds have been distributed to creditors; and (5) external audits3 and UST
field examinations. Over the past 15 years (1986 through 2001), the
Program made 71 referrals to the U.S. Attorneys for embezzlement by
trustees or their employees, which accounts for less than one percent of
total referrals during that period.

      The UST Program established in 1988 a Criminal Referral Tracking
System for performance measurement reporting and for monitoring fraud
referrals to law enforcement authorities. However, we found that the
tracking system, which depends on complete and accurate data submissions
by UST regional offices, was materially inaccurate. The usefulness of the
system for performance measurement and tracking of referrals was limited
due to inaccurate, missing, or inconsistent data; lack of standard data
protocols; and lack of review by UST and EOUST personnel to ensure the
accuracy and completeness of the data. In addition, the system did not
record data on the USTs’ efforts to investigate bankruptcy fraud cases.
Specifically, the system did not include cases that the USTs investigated but
did not refer to law enforcement. As a result, the UST Program was not able
to conduct complete and accurate trend analyses of fraudulent activity to
help target program attention to the greatest risks. Also, the current data
system and its data limitations may allow the UST Program, the Department,
and Congress to rely on incomplete and inaccurate data in measuring the
UST Program’s performance and making funding and resource allocation
decisions.

       The 21 UST regional offices provide data on fraud referrals for input to
the EOUST tracking system. The regional offices submit the data quarterly
on spreadsheets designed by the EOUST. The EOUST performs a limited
review of the 21 spreadsheets to ensure that the data fields are properly
formatted so the spreadsheets can be downloaded into the EOUST’s tracking
system. However, the EOUST does not verify that the data is accurate,
complete, or consistent. An EOUST staff member stated that the regions are
responsible for ensuring the integrity of the data, because the regions
maintain the supporting documentation. We found inconsistent and missing
data in 19 of the 33 data elements in the tracking system. For example,
regional offices used over 2,000 descriptions to identify the type of fraud.
Also, in about 72 percent of cases the amount of loss due to fraud was not

      3
         The UST Program reimburses the OIG for auditing Chapter 7 trustees. The audits
primarily test the trustees’ internal controls and practices, but do not focus on fraud.


                                            vi
entered into the system, and in 46 percent of the cases there was no code to
indicate the type of person (such as debtor or debtor’s attorney) who was
the subject of the referral. Further, the statute of limitations for the crime
was almost never recorded to help ensure timely action.

       To determine the accuracy of data submitted by individual UST
regional offices, we analyzed the sample of 302 fraud referrals discussed
previously. We reviewed the case file for each of the sampled referrals. The
case files varied widely in size depending on the nature of the allegation and
the complexity of the investigation. Our review of the supporting
documentation for the regional offices’ 302 fraud referrals determined that
approximately 34 percent of the cases contained at least one error or
omission and another 9 percent could not be verified due to missing files.
Data for 102 referrals was incomplete or inaccurate because the regional
offices either failed to enter the required data or entered erroneous data.
Data errors included referral date, subject name, case disposition, status,
referral source, amount of loss, bankruptcy case number, and the subject of
the referral such as debtor or attorney. Data omitted included type of
alleged fraud, referral source, amount of loss, name of subject, and
bankruptcy case number.

      Subsequent to the completion of our audit fieldwork, the UST Program
began taking a number of actions to improve its data system, including
issuing protocols to the field offices and placing the system under the
supervision of a Chief Information Officer.

      Limitations of the data system also affect the accuracy of the
UST Program’s performance measurement. The Program prepared a
Performance Plan for FY 2002 and FY 2003, and incorporated the plan into
its budget submission. The UST Program established a performance goal to
ensure that parties adhere to the standards of the law and to police for
embezzlement, fraud, and other abuses. To meet the performance goal, the
Program developed several performance indicators. In accordance with
Departmental policy,4 the Program did not establish targets for the number
of criminal referrals and convictions but instead reported data on a
prior-year basis. A recent performance plan stated that in FY 2001, the
UST Program made 586 referrals to law enforcement and 45 referrals
resulted in a conviction. However, the referral data is derived from the


       4
        The Department of Justice issued a policy letter in February 1999 stating that
numerical targets would not be established for performance indicators relating to law
enforcement activities such as arrests, indictments, convictions, and seizures. The
Department created this policy out of concern that such targets could be seen as “bounty
hunting.”


                                            vii
Criminal Referral Tracking System, which we have found materially
unreliable due to errors, inconsistencies, and omissions.

     Among the recommendations we make to the Director,
Executive Office for U.S. Trustees, are:

     •   Establish a uniform system of management controls to prevent and
         detect the more common and higher risk frauds such as
         concealment of assets.

     •   Ensure uniform, complete, and timely reviews of trustee’s reports.

     •   Provide specific guidance, performance expectations, and enhanced
         training for trustees if they are to bear primary responsibility for
         preventing and detecting fraud.

     •   Improve the accuracy, completeness, and consistency of the data in
         the National Tracking and Management System.

     •   Establish a nationwide data system, or adapt an existing data
         system, to track civil enforcement actions.




                                     viii
                               TABLE OF CONTENTS


BACKGROUND ................................................................................... 1

FINDINGS AND RECOMMENDATIONS ................................................... 17
FINDING 1: MANAGEMENT CONTROLS ................................................. 17
               Department’s Emphasis on Fraud................................ 17
               The UST Program’s Methods of Combating Fraud .......... 20
               Conclusions ............................................................. 41
               Recommendations .................................................... 42

FINDING 2: PERFORMANCE MEASUREMENT SYSTEM .............................. 43
               Tracking and Reporting Requirements ......................... 43
               Fraud Referrals to Law Enforcement ............................ 46
               Criminal Referral Tracking System .............................. 47
               Regional Offices’ Referral Data ................................... 51
               Data on Bankruptcy Fraud Investigations ..................... 53
               Use of the Data for Performance Measurement ............. 55
               Conclusions ............................................................. 57
               Recommendations .................................................... 57

APPENDIX 1          OBJECTIVES, SCOPE, AND METHODOLOGY .................... 59

APPENDIX 2          ABBREVIATIONS ........................................................ 62

APPENDIX 3          STATEMENT ON COMPLIANCE WITH LAWS AND
                    REGULATIONS ........................................................... 63

APPENDIX 4          UNITED STATES TRUSTEE PROGRAM REGIONAL AND
                    FIELD OFFICE LOCATIONS ........................................... 65

APPENDIX 5          NATIONAL BANKRUPTCY TRAINING INSTITUTE
                    UST PROGRAM PERSONNEL FRAUD TRAINING
                    MAY 2000 TO FEBRUARY 2002 ..................................... 68

APPENDIX 6          UNITED STATES TRUSTEE MANUAL
                    BANKRUPTCY FRAUD SCHEMES AND INDICATORS .......... 72

APPENDIX 7          HANDBOOKS FOR CHAPTERS 7 AND 13 TRUSTEES
                    SECTION 341(A) MEETING OF CREDITORS
                    REQUIRED STATEMENTS/QUESTIONS ........................... 76
APPENDIX 8    THE EOUST’S DATA ELEMENTS FOR THE
              CRIMINAL REFERRAL TRACKING SYSTEM ....................... 82

APPENDIX 9    OIG ANALYSIS OF MISSING
              AND INCONSISTENT DATA........................................... 83

APPENDIX 10   THE EOUST’S RESPONSE TO THE
              DRAFT REPORT .......................................................... 85

APPENDIX 11   OFFICE OF THE INSPECTOR GENERAL, AUDIT
              DIVISION, ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT ............................104
                                     BACKGROUND

Authorities

       The Bankruptcy Reform Act of 1978 (11 USC § 101, et seq.)
established a pilot U.S. Trustees Program to correct conflicts of interest and
enhance the integrity of the bankruptcy system. The Bankruptcy Judges,
U.S. Trustees, and the Family Farmer Bankruptcy Act of 1986 expanded the
Program from a pilot effort involving 18 districts to a permanent national
effort involving 21 regions with offices that mirrored the federal judicial
districts.5

       According to its mission statement, the UST Program is designed to:

       •   promote the efficiency, and protect and preserve the integrity
           of the bankruptcy system;

       •   work to secure the just, speedy, and economical resolution of
           bankruptcy cases;

       •   monitor the conduct of parties and take action to ensure
           compliance with applicable laws and procedures;

       •   identify and investigate bankruptcy fraud and abuse; and

       •   oversee administrative functions in bankruptcy cases.

       Title 11 of the U.S. Code, known as the Bankruptcy Code (Code),
and the Federal Rules of Bankruptcy Procedure govern bankruptcy
filings. There are two basic types of bankruptcy filings: liquidation
under Chapter 7 of the Code and rehabilitation of the debtor under
Chapters 11, 12, and 13. According to the United States Bankruptcy
Court, there were 6.9 million bankruptcy filings under these four
chapters for calendar years 1997 through 2001. The trend in
bankruptcy filings is upward. New bankruptcies filed during the
second quarter of 2002 and for the previous 12 months set all-time
records. New filings for a 12-month period ending June 2002 reached
1.5 million for the first time. The majority of bankruptcies are filed
under Chapter 7 of the Code.


       5
         The exceptions are the judicial districts of Alabama and North Carolina, which
elected to operate a separate bankruptcy administration program.



                                              1
Bankruptcy Chapters and Filings

      Debtors may file for relief under one of four Chapters of the Code:
Chapter 7 involves the liquidation of personal or business assets to satisfy
debts; Chapter 11 is used by businesses that want to continue operating
while paying debts; Chapter 12 allows family farms to continue operating
while paying debts; and Chapter 13 allows wage earners to reorganize their
financial affairs under a repayment plan. The four Chapters are described in
greater detail below.

       Over the past five calendar years, the number of bankruptcy filings of
all types has exceeded six million. The following table shows the number of
filings by bankruptcy Chapter for each year. In 2001, total bankruptcies
filed reached an all time high, increasing 19 percent (238,669) over 2000.
Bankruptcy filings increased for all chapters except Chapter 12, which
decreased by about 6 percent (24). The largest increase, about 23 percent
(195,755), was in Chapter 7 filings. Partial data for 2002 indicates that the
rate of bankruptcy filings continues to increase, reaching about 1.5 million
new filings over a 12-month period ending in the second quarter of 2002.


          Bankruptcy Filings by Chapter of the Bankruptcy Code
                  Calendar Years 1997 through 2001

   Year     Chapter 7 Chapter 11 Chapter 12 Chapter 13   Total
 1997         989,372    10,765        949    403,025  1,404,111
 1998       1,035,696     8,386        807    397,619  1,442,508
 1999         927,074     9,315        834    382,214  1,319,437
 2000         859,220     9,884        407    383,894  1,253,405
 2001       1,054,975    11,424        383    425,292  1,492,074
  Total    4,866,337    49,774       3,380 1,992,044 6,911,535
      Source: United States Bankruptcy Court

       Chapter 7 of the Code allows the liquidation (sale) of personal or
business assets to pay debts. In a Chapter 7 liquidation proceeding, assets
that are not exempt from creditors by law are collected and sold. A private
trustee appointed by a U.S. Trustee to administer the debtor’s estate
distributes the proceeds to creditors. An eligible debtor may receive a
discharge from his or her debts under Chapter 7, except for any debts that
are prohibited from discharge by the Bankruptcy Code such as taxes, child
support, and alimony payments. As shown in the table above, the vast
majority of bankruptcy filings are under Chapter 7 (70 percent of bankruptcy



                                         2
filings in 2001), although Chapter 13 results in almost twice as many dollars
collected from debtors.

      According to UST Program information, between calendar years 1994
and 2000, the total amount of receipts collected for Chapter 7 bankruptcy
cases was $10.5 billion. UST Program officials were unable to provide us
with the total of the original debt. As shown in following chart, 60 percent of
the receipts over the seven-year period, or $6.3 billion, was distributed to
creditors. The remainder of the receipts covered administrative and prior
bankruptcy chapter costs, costs of trustees and their firms, fees of
professionals, and other disbursements (including surplus funds returned to
debtors, non-estate funds paid to debtors or third parties, and debtor
exemptions).

                  Disbursements of Chapter 7 Receipts
                       Calendar Years 1994-2000




                                          Other
                          Other            4%
                      Professionals
                          11%
             Trustees and
              Their Firms
                  8%



            Administrative
              and Prior                                           Creditors
            Chapter Costs                                           60%
                17%




         Source: EOUST

      According to UST Program information, historically 95 percent of
Chapter 7 cases are cases where no money is returned to creditors. These
cases are commonly known as “no-asset” cases. Chapter 7 private trustees
receive $60 for administering a “no-asset” case. In cases where money is
returned to creditors (asset cases), the Chapter 7 trustees may receive




                                      3
substantial fees for administering the case. In asset cases, trustees received
the $60 plus compensation for services rendered as trustee.6

       Chapter 11 of the Code allows a debtor, usually a business, to pay
debts while continuing to operate. The debtor, often with the participation
of creditors, creates a reorganization plan allowing the repayment of all or
part of the debt. The debtor may generally continue business operations
pending reorganization, unless the court orders the appointment of a
trustee. In Chapter 11 cases the USTs are responsible for appointing and
convening the creditors’ committees and reviewing monthly operating
reports. Chapter 11 filings were less than one percent of total bankruptcy
filings in 2001. Information on collections and disbursements under
Chapter 11 was not readily available in UST Program information.
Chapter 11 debtors are required to pay quarterly fees to the UST Program
until the case is closed, dismissed, or converted to another Chapter. The
Chapter 11 debtor pays between $250 and $10,000 to the UST Program
based on the total amount disbursed during the quarter. If there are no
disbursements made during the quarter, the minimum fee of $250 must still
be paid. For FYs 1997 to 2001, the UST Program collected $361 million in
quarterly fees, an average of $18 million per quarter.

       Chapter 12 of the Code allows eligible family farms to file for
bankruptcy, reorganize the farm's business affairs, continue operating, and
repay all or part of the farm's debts. In 2001, the number of
Chapter 12 filings represented an inconsequential fraction of a percentage of
total bankruptcy filings. From FY 2001, the Chapter 12 trustees collected
$39.7 million in debtors’ payments, of which $31.3 million was paid to
creditors. The remaining $8.4 million was distributed to Chapter 12 trustees
for compensation, administrative expenses, and professional fees. A private
trustee appointed by a UST typically serves as the trustee of the debtor's
estate pending fulfillment of the debtor's repayment obligations under a plan
confirmed by the U.S. Bankruptcy Court. A Chapter 12 trustee is
compensated based on level five of the federal executive salary schedule or
five percent of payments, whichever is less.

      Chapter 13 of the Code allows individual wage earners (consumers) to
reorganize their financial affairs under a repayment plan that must be
completed within three to five years. To be eligible for Chapter 13 relief, a

      6
          The maximum allowable trustee compensation is not to exceed 25 percent on the
first $5,000 or less, 10 percent on any amount in excess of $5,000 but not in excess of
$50,000, 5 percent on any amount in excess of 50,000 but not in excess of $1 million, and
reasonable compensation not to exceed 3 percent of such moneys in excess of $1 million, of
all moneys disbursed or turned over in the case by the trustee.

                                            4
consumer must have regular income and may not have more than a certain
amount of debt, as set forth in the Bankruptcy Code. About 29 percent of
total bankruptcy filings in 2001 were under Chapter 13. However,
collections of debtors’ payments were almost twice as much as receipts
collected under Chapter 7, although Chapter 7 had over twice as many
bankruptcy filings. From FY 1994 through 2001, the Chapter 13 trustees
collected $19 billion in debtors’ payments, of which $15.4 billion was paid to
creditors. The remaining $3.6 billion was distributed to Chapter 13 trustees
for compensation, administrative expenses, and professional fees. A private
trustee appointed by a UST typically serves as the trustee of the debtor's
estate pending fulfillment of the debtor's repayment obligations under a plan
confirmed by the Bankruptcy Court. Chapter 13 trustee compensation is
similar to that of Chapter 12 trustees, described above.

UST Program Organization

       The UST Program has three major organizational units: the Executive
Office for U.S. Trustees (EOUST), 21 regional offices headed by USTs, and
95 field offices headed by Assistant United States Trustees (AUSTs).7 The
following chart shows the organizational structure of the UST Program.




      7
          A table showing the 21 regional and 95 field offices is included in Appendix 4.

                                               5
                                    United States Trustee Program
                                       Organizational Structure


                                                 Director


Associate Director         Principal                            Deputy Director
                        Deputy Director


    Office of            United States         Office of the       Office of        Office of
  Administration           Trustees           General Counsel     Review and      Research and
                                                                   Oversight        Planning

                     Boston          Cedar Rapids
                     New York        Kansas City
                     Philadelphia    Phoenix
                     Columbia        San Diego
                     New Orleans     Los Angeles
                     Dallas          San Francisco
                     Houston         Seattle
                     Memphis         Denver
                     Cleveland       Wichita
                     Indianapolis    Atlanta
                     Chicago


      Source: EOUST

      Responsibilities of the EOUST and USTs

      The EOUST, under a Director appointed by the Attorney General,
provides general policy and legal guidance to the UST Program’s regional
and field offices in their implementation of federal bankruptcy laws and also
oversees the UST Program's operations and administrative functions.

      Each UST, also appointed by the Attorney General, is responsible for
managing the field offices located within his or her region. Specifically, USTs
are responsible for:

      •   appointing and supervising private trustees who administer
          Chapters 7, 12, and 13 bankruptcy estates and directly serving as a
          trustee in cases where private trustees are unable or unwilling to
          serve;




                                                     6
       •    taking legal action to enforce the requirements of the Code and
            preventing fraud and abuse;

       •    referring cases for investigation and criminal prosecution;

       •    ensuring that bankruptcy estates are administered promptly and
            efficiently and that professional fees are reasonable;

       •    appointing and convening creditors' committees8 in Chapter 11
            business reorganization cases;

       •    reviewing disclosure statements and applications for the retention
            of professionals such as attorneys; and

       •    advocating matters relating to the Code and rules of procedure in
            court.

       Responsibilities of Private Trustees

     The UST appoints nearly all private trustees.9 As of March 2002, there
were 2,665 private trustees nationwide. The following chart shows the
number of private trustees by chapter.

                           United States Trustee Program
                             Trustees As of March 2002
                                                               Number of
                          Chapter                               Trustees
           CHAPTER 7                                             1,544

           CHAPTER 11                                                 879

           CHAPTER 12                                                  54

           CHAPTER 13                                                 188

           TOTAL                                                    2,665
            Source: EOUST


       8
         A creditors’ committee generally consists of three to eleven unsecured creditors.
The creditors’ committee may consult with the Program, debtors, and others on matters
affecting the administration of the estate.
       9
           Creditors may elect Chapter 7 and Chapter 11 trustees.

                                              7
       Chapter 7 Trustees

       The principal responsibility of a Chapter 7 trustee is to collect and
liquidate the property of a bankrupt estate and distribute the proceeds to
creditors. According to the Code, Chapter 7 trustees’ responsibilities are to:

       •    collect and sell estate property and close the estate as expeditiously
            as possible;

       •    assume accountability for all property received;

       •    ensure that the debtor surrenders estate property that secures
            consumer debts;

       •    investigate the financial affairs of the debtor;

       •    object to any improper claims on the estate;

       •    oppose the premature discharge of the debtor (but not the
            discharge of a particular debt, since only the creditor to whom it is
            owed may do so);

       •    furnish information concerning the estate and the estate’s
            administration as requested by interested parties unless ordered
            otherwise by the court;

       •    for authorized operating businesses of the debtor, file with the
            court, UST, or any governmental unit responsible for collecting or
            determining tax liability, periodic reports and summaries including
            statements of receipts and disbursements; and

       •    file final reports (TFRs) and final accounts (TDRs) of the
            administration of the estate with the UST and the court.10

       Chapter 11 Trustees

     The court may direct the UST to appoint a Chapter 11 trustee upon the
request of an interested party or the UST. A Chapter 11 trustee is appointed
if:



       10
          TFRs and TDRs are reports filed by trustees before and after the distribution of
funds to creditors, respectively.

                                              8
•     management is accused of fraud, dishonesty, incompetence, or
      gross mismanagement either before or after the commencement of
      the case; or

•     such appointment is in the interest of creditors, any equity security
      holders, and other interests of the estate.

Chapter 11 trustees are to:

•     be accountable for all property received;

•     examine proofs of claims and object to the allowance of any
      improper claims;

•     furnish information concerning the estate and the estate’s
      administration as requested by a party in interest, unless the court
      orders otherwise;

•     file with the court, UST, and any governmental unit with
      responsibility for collection or determination of any tax arising out
      of the operation, periodic reports and summaries of the operation of
      the business, including a statement of receipts and disbursements,
      and such other information as the UST or the court requires;

•     make a final report and file a final account of the administration of
      the estate with the court and the UST;

•     file the list, schedule,11 and statement if the debtor has not done
      so;

•     investigate the acts, conduct, assets, liabilities, and financial
      condition of the debtor, the operation of the debtor’s business and
      the desirability of the continuance of the business, and any other
      matter relevant to the case or to the formulation of a reorganization
      plan;

•     file a reorganization plan, a report of why the trustee will not file a
      reorganization plan, or recommend conversion or dismissal of the
      case;




11
     Debtors use bankruptcy schedules to report all assets and liabilities.

                                          9
     •   furnish, without personal liability, tax returns not filed by the
         debtor; and

     •   file any report necessary or as the court orders after confirmation of
         a plan.

      In lieu of appointing a trustee, the court may appoint an examiner to
conduct an investigation of the debtor as appropriate. The investigation
may include allegations of fraud, dishonesty, incompetence, misconduct,
mismanagement, or irregularity in the management of the affairs of the
debtor by current or former management. An examiner may be appointed if
one of the two following conditions exists:

     •   the appointment is in the best interest of creditors, any equity
         security holders, and other interests of the estate; or

     •   the debtor’s fixed, liquidated, unsecured debts – other than debts
         for goods, services, or taxes – exceed $5,000,000.

     Chapters 12 and 13 Trustees

      Most Chapters 12 and 13 trustees are known as standing trustees.
Their responsibilities are the same as Chapter 7 trustees except that they
also:

     •   appear at any hearing concerning the value of the property subject
         to a lien, confirmation of a plan, or modification of a plan after
         confirmation;

     •   assist the debtor in executing the plan;

     •   ensure that the debtor makes payments;

     •   investigate the acts, conduct, assets, liabilities, and financial
         condition of the debtor, the operation of the debtor’s business and
         the desirability of continuing the business, and any other matter
         relevant to the case or to the formulation of a plan if the debtor is
         engaged in business; and

     •   disburse to creditors funds collected from debtors pursuant to the
         terms of the confirmed plan.




                                       10
UST Program Funding and Expenditures

       The UST Program is entirely funded by fees assessed against debtors
who use the bankruptcy system. Fees established by statute are deposited
in the U.S. Trustee System Fund (Fund). Revenue for the UST Program is
also generated from interest on Fund balances invested in U.S. Treasury
notes and bills, Chapter 7 case administration receipts, excess compensation
of Chapters 12 and 13 trustees, and collections of outstanding receivables
that have been referred to the Department of the Treasury for debt
collection. The Congress appropriates a portion of the fees for use by the
UST Program. For FY 2001, the UST Program deposited $151 million into
the U.S. Trustee System Fund and was appropriated $126 million.

       Two categories of fees generate most of the revenue for the fund. The
first category, providing $61 million or 40 percent of the UST Program’s
funding in FY 2001, consists of fees paid by debtors at the inception of cases
under Chapters 7, 11, 12, and 13. The second category, providing
$82.5 million or 55 percent of the UST Program’s funding is the quarterly
fees paid by Chapter 11 debtors. The other $7.4 million or 5 percent comes
from miscellaneous compensation associated with Chapters 12 and 13, debt
collection receipts, and refunds.

       In FYs 1997 to 2002, the UST Program obligated about $739 million in
total to manage and provide oversight of the bankruptcy system. The UST
Program classifies the funds into two categories – Administration of Cases
and Management and Administration. The Administration of Cases category
includes the cost of administering all bankruptcy cases filed within the 95
field offices. The Management and Administration category includes the cost
to maintain the EOUST in Washington. In FY 2002, the UST Program’s
budget increased nearly 21 percent over FY 2001. The following table shows
the distribution of obligated funds between the two categories and the totals
by year.




                                     11
                Funds Obligated by the UST Program
                         FYs 1997 to 2002
                                 Management
                Administration        and
       Category   of Cases      Administration     Total

       1997             $ 99,569,000              $ 8,202,000         $107,771,000
       1998             $108,540,000              $ 9,001,000         $117,541,000
       1999             $110,737,000              $ 8,872,000         $119,609,000
       2000             $110,706,000              $10,843,000         $121,549,000
       2001             $117,735,000              $ 8,750,000         $126,485,000
       2002             $145,717,000                      $0*         $145,717,000

            Total      $693,004,000             $45,668,000         $738,672,000
       Source: Obligations for FYs 1997 to 2001 according to UST budget documents,
       and obligated funding for FY 2002 according to UST Program officials.

       * Per JMD guidance, as part of a Government Performance and Results Act
       initiative, the UST Program was directed to merge the Management and
       Administration decision unit into the Administration of Cases decision unit.

        According to UST Program officials, for FY 2002 Congress
appropriated $6.3 million to fund 104 positions for fraud and civil abuse
initiatives, $3.7 million for 55 positions to address additional bankruptcy
caseload, and nearly $2 million for 5 automation positions, hardware,
and facilities security. In addition, the UST Program received an
additional $2.8 million for mission-critical automation projects from the
unobligated balances in the Department’s Working Capital Fund.

        For FY 2002 the UST Program had requested $7.8 million for a fraud
and an abuse initiative, $7.3 million for hardware and software upgrades for
the UST Program’s Automated Case Management System (ACMS) and
electronic case filing,12 and $3.7 million to deal with the increase in
bankruptcy filings. Of the $7.8 million requested for fraud and abuse
initiatives, $1 million was for a Bankruptcy Fraud Initiative and $6.8 million
was for an Abuse Litigation Initiative. The purpose of the Bankruptcy Fraud
Initiative was to establish a Bankruptcy Fraud Team, consisting of 12 new
attorney positions, to serve each of the 11 judicial circuits and the

       12
          The Bankruptcy Courts started requiring that all cases be filed electronically with
courts nationwide by the close of FY 2002. Both filing and examining cases are to be done
electronically through the internet. The Electronic Case Filing gives the UST Program and
others the ability to review the text of all filed documents but does not give the ability to
capture and manipulate the information.

                                             12
Washington, D.C. area. The team was expected to help identify bankruptcy
fraud and support the prosecutorial efforts of federal law enforcement
authorities. The purpose of the Abuse Litigation Initiative was to hire
36 attorneys, 24 bankruptcy analysts, 24 paralegals, and 28 clerks to
identify debtors abusing the bankruptcy system. The initiative will target
those who file under Chapter 7 but who may have sufficient income to
sustain a Chapter 13 repayment plan. The UST Program was in the process
of hiring the additional staffing during our audit.

Training

      UST Employees

      The UST Manual emphasizes the need for UST personnel to be trained
in the criminal aspects of bankruptcy law so that they may effectively
respond to complaints, discover criminal activity, and promptly refer criminal
matters to the proper authorities. In FY 1999, the UST Program established
the National Bankruptcy Training Institute (Institute) located in
Columbia, South Carolina. The Institute’s courses were designed with
assistance from the American Bankruptcy Institute, National Association of
Bankruptcy Trustees, National Bankruptcy Fraud Working Group, and law
enforcement agencies. The Institute provides a three-day course on
bankruptcy fraud and civil enforcement to AUSTs, Attorneys, Bankruptcy
Analysts, and Paralegals. The course, entitled “Bankruptcy Fraud: Civil and
Criminal Enforcement,” covered:

      •   overview of the criminal justice system,

      •   uncovering evidence of fraud and abuse,

      •   health care fraud and bankruptcy,

      •   serial filers,

      •   fraudulent petition preparers,

      •   cooking the books, and

      •   identity fraud.

      As of February 2002, 421 of the 701 eligible employees, or 60 percent,
had received fraud training. A detailed listing of the number of employees
who received training, by regional office, is included in Appendix 5.


                                      13
      Panel and Standing Trustees

      The UST Program requires that Chapter 7 trustees receive at least one
hour of training on criminal fraud every three years. The training is to cover
the basic criminal bankruptcy statutes and preparation of fraud referrals.
The UST Program has not established a specific bankruptcy fraud training
requirement for the other chapter trustees. However, the USTs at the five
regional offices we audited provided annual bankruptcy fraud training to all
trustees.

Prior Audit Reports and Studies

      We identified and reviewed one prior Office of the Inspector General
(OIG) report and one Departmental study related to certain aspects of this
audit, primarily UST oversight of bankruptcy trustees. We did not identify
any relevant reports by the U.S. General Accounting Office.

       In the OIG’s September 1992 audit report, “Monitoring of Private
Trustees” (92-19), we reviewed the EOUST’s and the UST’s (1) reporting
and monitoring of private trustees, and (2) follow up on private trustee
deficiencies and indications of fraud. We found that the UST regions had
procedures for monitoring private trustees’ bonding, reporting, and case
closing and for following up on Chapter 7 reviews. However, the quality of
monitoring varied by region and sometimes among field offices within
regions. We concluded that the EOUST had limited assurance of trustee
propriety because its oversight of trustee reviews and audits needed
improvement. The report recommended that the EOUST issue national
policy directives setting forth (1) minimum standards that UST regions must
follow in documenting, assessing, and disposing of fraud allegations against
trustees, and (2) guidelines for use by UST personnel to detect fraudulent
trustee activities. Among the other findings discussed in the report were:

      •   UST regions were not rigorously following up on correction of
          trustee deficiencies identified by external reviews,

      •   over one-third of sampled panel trustees submitted incorrect or
          incomplete semiannual reports, and

      •   the EOUST lacked an effective method for gathering and compiling
          program statistics to ensure accurate data.

     The EOUST implemented the two recommendations by including in the
UST Manual the minimum standards for documenting, assessing, and


                                      14
disposing of fraud allegations against trustees and by establishing protocols
for regions to follow in dealing with suspected embezzlement and
reconstructing the trustee’s records.

       At the request of the EOUST Director, the Management and Planning
Staff (MPS) of the Department’s Justice Management Division reviewed UST
oversight and management of Chapters 7 and 13. The MPS based its review
on interviews at the EOUST and 17 field offices and three other federal
agencies. The MPS’s October 1999 report, “A Management Review of the
U.S. Trustee Program Chapter 7 and 13 Bankruptcy Oversight Processes,”
stated:

            Most staff felt that all [emphasis is original] of the current
            oversight activities are needed to minimize the risks and
            were not able to set priorities on efficacy or probability.
            Disagreement exists on the proper mix of techniques to
            deter or detect crime and abuse. To figure out the most
            efficient mix of oversight activities, assessing the risk
            inherent to the current system is essential and to decide
            the amount of risk acceptable to USTP [U.S. Trustee
            Program] managers. The EOUST should conduct a formal
            analysis of its program risks, along with an assessment of
            the cost/benefit of certain prevention techniques.

      The MPS report also stated the following.

      •   Interviewees were satisfied with existing Chapter 7 oversight
          activities but suggested some changes such as improved trustee
          training and more face-to face contact with trustees. Interviewees
          also suggested changes in UST reviews of trustees’ financial
          reports.

      •   The Chapter 13 process is satisfactory, but some interviewees
          thought that oversight of case administration and trustees needed
          improvement. Some respondents said that the program was ripe
          for fraud and abuse.

      •   Addressing some overarching management concerns would provide
          significant efficiency gains for Chapters 7 and 13 oversight
          activities. For example, a more robust and user-friendly
          information system was needed and there should be greater use of
          sampling techniques in reviewing trustee reports.



                                       15
     The MPS recommended that the UST Program take the following
actions.

     •   Develop an “Anti-Petition Preparer Initiative” that includes creating a
         national database of petition preparers to aid in the detection of
         fraudulent activity.

     •   Provide a nationwide database of cases to help in the detection of
         potential fraud, waste, and abuse.

     •   Obtain the expertise of an outside agency or contractor to conduct a
         study to determine the amount and extent of debtor fraud in
         Chapter 7 and 13 bankruptcies, as a key element of risk analysis.

       The EOUST has partially implemented the MPS recommendations.
Specifically, in January 2002 the EOUST established a petition preparer
database tracking system. The database tracking system is discussed in
more detail later in this report. The EOUST has not developed a nationwide
database of cases to help with the detection of potential fraud, waste, and
abuse. However, some regional offices have designed their own tracking
systems, both manual and electronic. In one office we audited, the regional
staff developed five separate tracking systems to report and track cases.
Lastly, at the time of our audit the EOUST had not obtained the expertise of
an outside agency or hired a contractor to determine the amount and extent
of debtor fraud in Chapters 7 and 13 bankruptcies. As a result, three years
after the MPS report UST Program officials told us that they do not know the
extent of fraud in the bankruptcy system. Others in the bankruptcy system
such as bankruptcy judges, trustees, and national creditor organizations
have urged the UST Program to do more to identify fraud because fraud may
be increasing with the rise in the number of bankruptcy filings.




                                      16
FINDINGS AND RECOMMENDATIONS

FINDING 1: MANAGEMENT CONTROLS

     The UST Program has begun some initiatives to target certain
     types of fraud and has made civil enforcement — in addition to
     criminal referrals to law enforcement — its number one
     priority. However, the UST Program relies substantially on the
     initiative of private trustees and on tips to detect most fraud.
     Moreover, the UST Program does not have an ongoing,
     systematic process to identify vulnerabilities in the bankruptcy
     system and establish uniform internal controls to detect
     common, high-risk frauds such as a debtor’s failure to disclose
     all assets. In fact, the management controls in place did not
     address most of the fraud indicators identified in the
     UST Manual and focused primarily on fraud that might be
     committed by trustees and trustees’ employees. While such
     controls over trustee operations are necessary and likely
     contribute to deterring fraud and abuse by trustees and their
     employees — which accounted for less than one percent of UST
     referrals to law enforcement over the last 15 years — these
     controls do not focus on other, higher-risk sources of fraud. As
     a result, bankruptcy fraud may not be discovered, and the
     UST Program’s mission to preserve the integrity of the
     bankruptcy system may not be accomplished as effectively as
     possible.

Department’s Emphasis on Fraud

      Bankruptcy fraud threatens the integrity of the bankruptcy system
because the system depends on full disclosure by debtors, creditors, and
professionals in order to resolve disputes and to distribute money and
property. The protection and integrity of the bankruptcy system is
dependent upon the UST Program identifying bankruptcy fraud and abuse
and taking appropriate actions.

      In an October 1995 memorandum, the Attorney General emphasized
the need for Departmental components to work together for the successful
prosecution of bankruptcy fraud cases. The Attorney General stated in the
memorandum:

     [I]t is imperative that the integrity of the bankruptcy system,
     an integral component of our national economy, be preserved


                                     17
     and enhanced. Debtors who conceal assets, trustees who
     administer estates to their own improper advantage and
     professionals who run bankruptcy mills and other schemes
     involving the bankruptcy laws all undermine our faith in the
     integrity of the system.

      The Attorney General identified the basic components essential to a
successful bankruptcy fraud effort: training, a team approach and
coordination of all available resources, and prosecutorial discretion that
focuses on the merits of a case rather than a blanket declination policy
based solely on dollar amount.

     Bankruptcy Fraud Task Groups

      In response to the Attorney General’s memorandum, the UST Program
began establishing interagency Bankruptcy Fraud Task Groups
(Task Groups)13 and at the time of our audit had established Task Groups in
66 of the 95 UST field offices. The Task Groups were formed to aid in the
successful prosecution of bankruptcy fraud cases by meeting periodically to
discuss potential and actual bankruptcy fraud referrals, allow unproductive
cases to be set aside and productive referrals brought to resolution quickly,
and allow all parties to keep up to date of the status of the cases.
Task Groups include members from UST offices, U.S. Attorney’s Offices, the
FBI, and other federal agencies such as the Internal Revenue Service and
the Social Security Administration.

      We spoke with the UST, FBI, and U.S. Attorney’s representatives of
the Task Groups for the five regional offices we audited. Before the
September 11, 2001, terrorist attacks, the Task Groups met quarterly or
semiannually to discuss cases. Since then, the Task Groups have not met
regularly. According to the representatives, resources within the law
enforcement agencies have been shifted to other priorities. In addition,
most representatives told us that the establishment of the Task Groups had
not necessarily aided in the successful prosecution of bankruptcy fraud
cases. The National Bankruptcy Fraud Tracking System (discussed in
Finding 2 of this report) showed that since FY 1995, 482 convictions resulted
from the 6,090 fraud referrals made by the UST Program, or 8 percent.
Between FYs 1988 and 1995, 355 convictions resulted from 1,474 fraud
referrals, or 24 percent. No data was available to show how many
convictions resulted from Task Groups’ involvement. However, some



     13
          The USTs could not provide us the dates for the establishment of the Task Groups.

                                            18
Task Group representatives said that the Task Groups remain beneficial
because the groups allow sharing of information about bankruptcy fraud with
other federal law enforcement agencies.

       Fraud Indicators

       The UST Program has identified in the UST Manual a detailed list of
fraud indicators and the most common fraud schemes perpetrated by
debtors, creditors, petition preparers, and others. Examples of the types of
fraud indicators and schemes are shown in the following table. A complete
listing of the fraud schemes and indicators appears in Appendix 6.

Fraud Scheme                               Fraud Indicators

Concealment and          •    Claims of theft or large gambling losses just before
False Statements              bankruptcy
                         •    Inability to account for property listed on insurance
                              policies or personal financial statements in existence
                              before bankruptcy
                         •    Incomplete schedules - frequent amendments in
                              response to creditor questions
                         •    Unexplained change in financial circumstances
                         •    Debtor shows no ownership interest in residence
                         •    Tax returns not filed for the relevant years
                         •    Unsecured debt does not reconcile with assets listed,
                              e.g., large number of medical bills, but no lawsuit
                              listed
                         •    Failure to list prior bankruptcies
                         •    Significant amendments to list of creditors after the
                              Section 341 meeting of creditors14
                         •    Complaints by ex-employees, ex-spouses, or
                              ex-partners about hidden or omitted assets
                         •    Fifth Amendment claimed on any issue
                         •    Fire or other disaster occurs (of particular importance
                              if arson is suspected)
                         •    Transfer of property to relatives or friends just before
                              bankruptcy
                         •    Sudden appearance of loans or loan repayments to
                              friends or relatives with little or no documentation
                         •    Sudden change of attorney for no apparent reason
                         •    Debtor "confused" about his/her assets and financial
                              affairs

Serial Filers            •    Debtor has filed a high number of cases in a short
                              period of time
                         •    Debtor does not disclose prior bankruptcy cases


       14
         The Bankruptcy Code Section 341 meeting of creditors allows creditors, trustees,
and other parties of interest to question debtors about the debts and assets of the estate.

                                             19
                     •   Debtor uses different counsel to file each case
                     •   Chapter 13 cases never completed because of failure
                         to fund plan
                     •   Debtor had been prohibited from filing a case pursuant
                         to 11 U.S.C. § 109(g)

      A fraud indicator could be present in situations where there is no
fraud. The USTs, trustees, and law enforcement officials must conduct an
investigation to determine if a prosecutable fraud exists.

The UST Program’s Methods Of Combating Fraud

      The UST Program relies substantially on trustees to monitor for fraud
and also on tips from ex-spouses, ex-business partners, creditors, and
others. Based on information developed by trustees or through tips, the
UST can investigate the circumstances and refer fraud cases to law
enforcement agencies or to U.S. Attorneys for potential criminal prosecution.
The management controls implemented directly by the USTs do not address
most of the fraud schemes and indicators identified in the UST Manual but
instead emphasize deterring and detecting fraud by trustees against
bankruptcy estates. However, some UST regions do not rely as extensively
on trustees and tips — even though tips are a valuable tool — to detect
fraud by debtors and others and have implemented their own fraud
detection measures, such as reviewing bankruptcy petitions and schedules of
assets to identify concealed property. Where no criminal violation occurs or
where prosecution for fraud may be unlikely due to U.S. Attorneys’
guidelines or the nature of the case, USTs can file civil lawsuits against
debtors or others who attempt to defraud or abuse the bankruptcy system.
The UST Program has begun to emphasize such civil enforcement actions
and has established nationwide initiatives to address two specific types of
bankruptcy fraud — use of false identities and false social security numbers,
and unscrupulous bankruptcy petition preparers — for either criminal
enforcement or civil enforcement. Lastly, to prevent or detect fraud and
abuse by bankruptcy trustees themselves, UST offices review trustees’
financial reports and also rely on on-site reviews and external audits.

      Trustees

       The USTs rely on private trustees as the first line of defense in
detecting bankruptcy fraud, but trustees do not always have the incentive,
time, or initiative to conduct the research necessary to detect fraud. Still,
trustees are in a good position to help identify fraud and abuse in the
bankruptcy system. For most debtors, the trustee is the only bankruptcy
official with whom the debtor will interact during the bankruptcy process.


                                       20
Also, trustees have access to debtors’ petitions and schedules, and can
request additional information such as tax returns and bank statements.
According to the UST Program, trustees can discover fraud in several ways:

      •   initial review of property schedules, statements of affairs, and
          statements of current income and expenses;

      •   review of records such as financial statements and records,
          Uniform Commercial Code filings and title searches, insurance
          records, divorce files, bank loan files, proofs of claim, and tax
          returns;

      •   interview of debtor at the Section 341 meeting of creditors; and

      •   complaints or tips from third parties.

To evaluate trustees’ performance in activities that could help identify fraud,
the UST reviews or attends at least one of the trustee’s Section 341
meetings of creditors. The result of that evaluation is documented in the
UST annual performance evaluations of Chapters 7 and 13 trustees.

       We reviewed the latest UST performance evaluations of Chapters 7
and 13 trustees. In 102 of 118 performance evaluations we reviewed, the
USTs determined that trustees implemented the procedures that might
detect fraud and abuse. However, in 16 instances the USTs found that
trustees did not implement the fraud-detection procedures. Specifically,
these trustees failed to: adequately investigate the financial affairs of
debtors, ask required questions (listed in Appendix 7) at the Section 341
meeting of creditors, or obtain proof of the debtor’s social security number.
In nearly all cases of substandard performance, the USTs reminded the
trustees during the evaluation of the importance of asking the required
questions and obtaining the proof of the debtor’s social security number.
However, a UST immediately suspended one trustee from receiving new
cases for failing to adequately investigate the financial affairs of debtors; the
trustee was later reinstated once the deficiencies were resolved.

      According to one UST, several obstacles limit the role of trustees in
preventing and detecting fraud in bankruptcy cases. The UST indicated that
trustees do not have an economic incentive to pursue bankruptcy fraud in
Chapter 7 cases where no money is returned to creditors. According to the
UST Program, historically 95 percent of Chapter 7 cases are cases where no
money is returned to creditors. These cases are commonly known as



                                       21
“no-asset” cases. As stated earlier in this report, Chapter 7 trustees receive
$60 for administering a “no-asset” case. In cases where money is returned
to creditors (asset cases), Chapter 7 trustees receive compensation based
on a percentage of the funds disbursed to creditors; the percentage varies
depending on the size of the estate. The trustees have little financial
incentive to spend many hours reviewing “no-asset” cases to detect potential
fraud. However, if the trustees elect to perform the review and uncover
assets, they would receive additional compensation for administering the
case.

      The same UST stated that another obstacle is that trustees’ calendars
are crowded and a short period of time is allocated for the Section 341
meeting of creditors. Therefore, trustees may not have sufficient time to
thoroughly examine the debtors for concealment of assets, false statements,
and multiple filings.

       Another UST stated that trustees do not always implement controls to
detect bankruptcy fraud. The UST stated that the number of complaints, or
tips, received from the public indicates a greater level of criminal activity
than is being reported by the trustees. The following example illustrates
how debtors’ fraudulent behavior may go undetected by trustees
administering the cases for many years.

       A couple filed 16 bankruptcy petitions in 10 years, from 1990 to 2000,
to hinder and delay foreclosure of real property. In addition, the couple
used multiple social security numbers not assigned to them, and failed to
disclose prior bankruptcy cases to the court. Six of the 16 petitions were
filed in violation of a court order barring the couple from further filings for a
period of 180 days. The husband filed four Chapter 13 petitions during the
period 1990 to 1992 for the purpose of delaying foreclosure of their
residence. When the court barred him from further filings for a period of
180 days, his wife filed a Chapter 13 petition, which included the same
residential property, again to secure the automatic stay and delay
foreclosure. When the case was dismissed with a bar to further filings, she
filed two additional Chapter 13 petitions in violation of this order. When the
two cases were dismissed with an order that any further filings by the wife
would be null and void, the husband filed another Chapter 13 petition
including the same residential property. The husband then filed a Chapter 7
petition in which he obtained a discharge of his debts in 1998. The most
recent case was filed in January 2000, at which time the same Chapter 13
trustee was administering the case and the two previous cases filed by the
couple.



                                       22
       Although there is no stipulation in the law as to how many times a
debtor can file for bankruptcy without a discharge, filing for bankruptcy in an
attempt to defraud creditors is a violation of the Code. Action was not taken
against the couple until a secured creditor stated in a motion for relief from
the automatic stay that the filing was the 13th filing and that creditors were
forced to cancel and resume foreclosure proceedings 11 different times.
After reviewing the motion for relief, the Chapter 13 trustee referred the
case to the UST. The UST reviewed on-line public credit records and found
that the couple used multiple social security numbers and various aliases to
file for bankruptcy relief and obtain credit. The UST then referred the case
for potential criminal prosecution. The UST Program contracts with a
company to provide access to on-line public information. As of the third
quarter of FY 2002, the UST Program spent about $122,000 for the on-line
service contract. Every UST office has access to the database by a dial-up
line. The UST offices use the on-line service to identify and locate concealed
assets, verify social security numbers, and obtain litigation history
information after receiving an allegation of fraud. In our judgment, the
on-line service also would be effective in detecting debtor fraud if USTs
routinely used it in the course of reviewing bankruptcy petitions.

        Tips

       The AUSTs at the five regional offices we audited stated that they rely
substantially on complaints, or tips15 from the public — usually an ex-spouse
or ex-business partner — to report instances of bankruptcy fraud. Because
UST Program data did not indicate what percentage of UST referrals to law
enforcement authorities were based on tips, we reviewed the fraud referrals
made in FYs 1999 to 2001. We reviewed all of the referrals made during the
three years, except in the Los Angeles Regional Office where we sampled
because of the volume of referrals.16 In total, our sample included 302
referrals for the five regional offices.17 We reviewed the case files for each
fraud referral to determine the method of detection. The table below shows
that most of the criminal referrals (48 percent) resulted from tips by
creditors, ex-spouses, ex-partners, and victims. The method of detection for
the 302 referrals to law enforcement authorities is detailed in the following
table.

       15
          The Program does not provide rewards or other financial incentives for tips that
lead to prosecution or civil enforcement.
       16
       The Los Angeles Regional Office made 865 referrals during the three years; we
judgmentally selected 10 percent (86) of the 865 cases.
       17
          According to the EOUST, USTs are not always made aware of the outcome of fraud
referrals. Therefore, complete data on prosecutions is not available for the 302 referrals.

                                             23
               Method of Detection in Sampled Cases
                     Tips vs. Other Methods
           Method        NY   PHL    CHG    LA    ATL                          Total
Tips
                                 23           24     18        44       36      145
Review of debtor’s
                                   7          3      21        32       20        83
financial records
Unable to determine
                                   8          9       1         3       11        32
Section 341 meeting
                                   7          3       4         4       11        29
of creditors
Reverse referrals
                                   0          0       5         3         0         8
Judicial proceeding
                                   3          2       0         0         0         5


             Total               48        41        49       86        78      302

          Source: Field offices’ case files

•      Referrals for 145 of 302 sampled cases were made based on tips
       received by either the UST or the trustee from individuals outside
       of the Department such as creditors and victims of the fraud. The
       subjects of the referrals were debtors, debtor’s principals,18 and
       private attorneys. The types of frauds allegedly committed by
       these individuals included bribery, concealment of assets,
       consumer fraud, equity skimming, counterfeiting, false identity,
       false statements or documents, embezzlement, forgery, and
       multiple filings.

•      Eighty-three referrals were based on reviews of debtors’ financial
       records; 69 by trustees, 6 by USTs, and the remaining 8 by
       professionals hired by trustees and creditors. The subjects of the
       referrals were debtors and petition preparers. The type of alleged
       fraud committed by these individuals included concealment of
       assets, false identity, consumer fraud, false statements or
       documents, embezzlement, serial filers, and rigged auction.

•      Thirty-two referrals either did not have a case file or the method of
       detection was not stated in the file. Case files were not available

18
     Debtor’s principals are officers of entities that filed for bankruptcy protection.

                                          24
           because either the referrals were made verbally or were destroyed
           after the U.S. Attorneys declined the cases. According to the
           UST Program’s fraud referral database (discussed in Finding 2), the
           subjects of the referrals were debtors, private attorneys, and
           petition preparers. The types of suspected fraud included false
           identity, concealment of assets, embezzlement, arson, false
           statements or documents, and forgery.

      •    Twenty-nine referrals were based on the Section 341 meeting of
           creditors. The subjects of the criminal referrals were debtors and
           debtors’ attorneys. The type of fraud allegedly committed by these
           individuals included concealment of assets, equity skimming, false
           identity, false statements or documents, forgery, and
           embezzlement.

      •    Eight referrals were from the U.S. Attorney or the FBI to the UST
           for initial investigation of suspected debtor fraud such as
           concealment of assets and false identity.

      •    Five referrals were based on judicial proceedings such as adversary
           proceedings, a rule 2004 examination,19 and a court hearing. The
           subjects of the referrals were debtors and debtor’s principals who
           allegedly committed fraud through bid rigging, concealment, and
           false statements or documents.

       Tips from outside sources are one useful tool in combating bankruptcy
fraud; however, tips are a passive method and are not a substitute for
effective management controls to prevent and detect the most significant
bankruptcy problems and to target resources accordingly. Further, not all
tips are legitimate, yet the information provided requires time and effort to
investigate. The amount of resources the UST Program devotes to these
cases is unknown since field offices do not track their investigations (see
Finding 2).

      Civil Enforcement

       Civil enforcement action — as well as criminal prosecution — can be an
effective tool to help combat bankruptcy fraud. Although criminal
prosecution is a strong method for combating bankruptcy fraud, not all fraud
referrals result in prosecutions. Therefore, the UST, or another interested

      19
        A rule 2004 examination allows trustees or creditors to conduct a more extensive
examination of debtors’ petitions, schedules and financial documents.



                                           25
party, may file a civil lawsuit against a debtor or a petition preparer. Unlike
a criminal fraud prosecution, civil enforcement actions do not require a
criminal investigation or involvement of a U.S. Attorney. Instead, the UST
may file a complaint with the court to outline the alleged wrongdoing of the
debtor or others after identifying the benefit of the fraud and then selecting
the appropriate civil enforcement action to deny that benefit. The most
common benefits of fraud include: (1) the automatic stay, which prevents
the creditor from pursuing any action against the debtor or the property of
the estate to collect or enforce a pre-petition debt; (2) the discharge, which
removes the debtors obligation to pay a debt; and (3) creditor inertia, which
causes many creditors to write off debt when a bankruptcy case is filed and
abandon collection efforts even if the case is subsequently dismissed. A
bankruptcy court judge hears the case and issues a court order outlining the
findings of the court. The UST Program has made civil enforcement its
number one priority.

      Among the civil enforcement actions available to USTs are:

      •   a motion to dismiss a case,

      •   an objection to the dismissal of a case,

      •   a motion to deny or revoke a discharge,

      •   a motion to appoint a trustee or an examiner,

      •   a motion to convert a case to another chapter,

      •   a motion to compel a debtor to appear or provide documents,

      •   a motion for sanctions against a party for failure to adhere to the
          ruling of the court,

      •   a complaint for permanent injunction, and

      •   a recovery of unauthorized expenses or excessive compensation.

      In addition the UST may take administrative action to:

      •   suspend a panel trustee from case assignments, and

      •   remove a trustee from the panel of trustees.



                                        26
      On October 30, 2001, the then Acting Director of the EOUST
announced an initiative intended to more aggressively use existing civil
enforcement methods to curb abuse of the bankruptcy system. The Acting
Director stated:

      [E]ffective case administration is vital to ensure the American
      public that the bankruptcy system provides relief for honest but
      unfortunate debtors overcome by serious financial difficulties.
      The Civil Enforcement Initiative emanates from the
      U.S. Trustee Program’s long-standing commitment to enforce
      the Nation’s bankruptcy laws and explore other meaningful
      strategies to bolster public confidence in the integrity and
      effectiveness of the bankruptcy system.

       According to the Acting Director, the priorities of the Civil Enforcement
Initiative require a concerted effort nationwide to use existing tools in a way
that best accomplishes tangible results and improvements for case
administration. The priorities of the Civil Enforcement Initiative are to:

      •   ensure that Chapter 7 is not abused and that Chapter 7 debtors are
          held accountable;

      •   protect consumer debtors, creditors, and others who are victimized
          by those who mislead or misinform debtors, make false
          representations in connection with a bankruptcy case, or otherwise
          abuse the bankruptcy process;

      •   ensure that Chapter 11 debtors proceed with their cases promptly
          and are informed of and held to account for their obligations under
          the bankruptcy code; and

      •   fight fraud and abuse by making criminal referrals and assisting
          United States Attorneys in criminal prosecutions.

      To ensure the success of the initiative, each UST was asked to develop
an action plan to identify the highest-priority civil enforcement problems in
each office and assess the progress made in addressing the problems. The
action plan was to:

      •   identify and describe each civil enforcement problem;




                                       27
      •    describe previous actions taken to address each problem, analyze
           the effectiveness of such prior actions, and list any measures that
           quantify the scope of the problem; and

      •    recite the range of remedies available to address each problem and
           analyze which actions are most likely to be pursued.

      At the time of our audit, all 95 offices had submitted civil enforcement
action plans to the EOUST. The five UST regions we audited identified either
credit card “bust-out” schemes20 or serial filers as the most common
problem in their region to be addressed through civil enforcement actions.

       For credit card bust-outs, four of the five regional offices we audited
reviewed petitions that had at least $100,000 in consumer debt and little to
no assets. In these cases, the regional offices determined whether the
debtors filed a bankruptcy petition in bad faith or concealed assets. Filing a
petition in bad faith means the debtor made a significant amount of credit
card purchases without the intent and means to repay creditors and then
immediately filed bankruptcy. The regional offices or trustees requested
those debtors who met the criteria for a credit card bust-out to provide
additional financial information such as tax returns, bank statements, and
credit card statements to assist with the review of the debtor’s financial
background. One of the five regional offices did not implement credit card
bust-out procedures because it did not consider credit card bust-outs to be a
significant problem in that region.

       Serial filers are individuals who repeatedly file bankruptcy to gain the
benefit of an automatic stay21 or a discharge of debts. Serial filers usually
do not disclose that they have previously filed for bankruptcy. Some, but
not all, UST regional offices use the UST Program’s Automated Case
Management System (ACMS) to determine if debtors have multiple filings.
The ACMS generates a daily exception report that identifies social security
numbers that have been used in more than one bankruptcy filing. In one
region, for example, an attorney reviews the exception report to determine if
a debtor has received a discharge within the past six years or has been
barred from refiling a bankruptcy petition. The attorney notifies the case



      20
        Credit card bust-outs occur when individuals declare bankruptcy after obtaining
 goods on credit without the intent to pay and then dispose of the goods for cash.
      21
        Debtors receive an automatic stay when they file for bankruptcy protection.
 Creditors must cease all collection efforts under the stay unless the bankruptcy court
 orders a relief from the automatic stay or the case is dismissed.

                                            28
trustee to obtain additional information from the debtor at the Section 341
meeting of creditors.

        The ACMS exception report compares the current filing with at least
one previous filing within the same judicial district. This method of detecting
serial filers is limited because a comparison is not made nationwide; if a
debtor filed for bankruptcy in more than one judicial district, the debtor
would not appear on the exception report. For example, a debtor filed two
bankruptcy petitions in the Northern District of California and received
discharges in April 1989 and June 1992. The debtor then moved to the
Northern District of Georgia, filed an additional two bankruptcy petitions,
and received discharges in April 1995 and May 1998. According to the Code
(11 USC 727), a debtor is barred from receiving more than one discharge in
a six-year period. If the ACMS system were enhanced to provide regional
offices with the ability to compare bankruptcy filings nationwide, the
exception report would be a more effective control for combating serial
filers, as long as the regions were required to use the system to help identify
serial filers. However, officials in some regional offices suggested that serial
filers were not a significant problem in their region.

       UST Program officials told us that although they never will be able to
prevent or identify all instances of fraud and abuse, civil enforcement has
been a successful initiative as evidenced by numerous examples among
significant UST events reported weekly to the Attorney General.
Subsequent to completion of our audit field work, UST Program officials
provided us examples of the reports to the Attorney General. Among the
many successful civil enforcement actions reported were:

      •   Voluntary dismissal of a case in September 2002 prevented
          discharge of $1.3 million in debts where debtor had transferred
          substantially all assets to his spouse or to himself and his spouse as
          tenants by entirety. The debtor and his non-filing spouse earned
          over $180,000 annually, and the spouse owned an estate paid for
          by the debtor three years before the debtor’s bankruptcy filing.

      •   In August 2002 a debtor converted her Chapter 7 case to
          Chapter 13 at a hearing on the UST’s motion to dismiss the case.
          The debtor was a single wage earner with no dependents, a
          $90,000 income, and a $215,000 home. Her monthly expenses
          included: $2,070 in payments for three notes secured by her
          house; $636 for a vehicle; $411 for telephone, cable, and internet
          services; and $340 for furniture. The UST argued that allowing the
          debtor to maintain her high lifestyle while discharging over $76,000


                                       29
          in debt would constitute a substantial abuse of the bankruptcy
          system.

      •   The Bankruptcy court in July 2002 entered a default judgment
          denying discharge to a debtor who listed $1,625 in personal
          property and $617,267 in credit card debt on his bankruptcy
          schedules. The debtor during the Section 341 meeting stated that
          a former roommate removed over $60,000 in appliances and
          furniture without authorization and that he (the debtor) lost over
          $100,000 through gambling, used his credit card to cover living
          expenses for his pregnant wife and four children whom he brought
          from overseas, for one month visited a discount store almost daily
          and spent $62,347, and flew to London and made duty free
          purchases. An investigator for the discount store disclosed the
          debtor’s scam of purchasing cigarettes for resale through a
          wholesaler’s license allowing tax-free purchases. The former
          roommate was a producer and wholesaler of food, tobacco, and
          alcoholic beverages. The UST filed a complaint based on the
          debtor’s false oaths, inability to explain the location of estate
          property, and failure to keep records.

      Debtor Identification Program

      The UST Program established a Debtor Identification Pilot Program in
2001 to confirm debtors’ identities and social security numbers, ensure a
more accurate bankruptcy court record, and assess whether the problems of
misidentified debtors and incorrect social security numbers on petitions were
widespread. The initiative included efforts to help victims whose credit
reports could be affected by the use of incorrect social security numbers on
bankruptcy petitions.

      The pilot program was based on an identification project begun in
September 1999 in Chicago and on similar practices in several other offices
nationwide. The Chicago project was expanded to 25 UST offices in
14 regions, covering 18 federal judicial districts, from January 1, 2001
through June 30, 2001.

       During the pilot program, all individuals who filed a bankruptcy petition
under Chapters 7 or 13 of the Code were required to produce photo
identification and confirmation of social security number at the Section 341
meeting of creditors. Acceptable forms of photo identification included:

      •   driver’s license,


                                      30
      •   government identification,

      •   state picture identification,

      •   student identification,

      •   U.S. passport,

      •   military identification, or

      •   resident alien card.

Acceptable proofs of social security number included:

      •   social security card,

      •   medical insurance card,

      •   pay stub,

      •   IRS W-2 form,

      •   IRS Form 1099, or

      •   Social Security Administration report.

       The pilot program included 127,590 Chapter 7 and Chapter 13 cases
filed in the 18 federal judicial districts. Of these cases, about 1,225
(one percent) initially had problems with the debtors’ identifications or social
security numbers. While most of the problems proved to be typographical
errors (1,006), some involved questionable names or identity documents
(191), and possible misuse or falsification of social security numbers (32).

      If the debtor failed to bring the proof of identification or social security
number to the meeting or the name or social security number did not match
the information on the petition, trustees proceeded with the standard
questions at the Section 341 meeting but continued the meeting on another
date for production of the required documentation. Trustees referred cases
to the UST for appropriate action if debtors failed to provide the
documentation or file amended petitions. The UST would then take civil
action to dismiss the case, object to bankruptcy discharge, or object to
confirmation of a Chapter 13 repayment plan. Instances of possible identity


                                          31
fraud were referred to the U.S. Attorney for criminal investigation and
potential prosecution.

      Based on the results of the pilot program, the then Acting Director of
the EOUST issued a new rule that required every individual filing a personal
bankruptcy case under Chapters 7 or 13 to show proof of identification at
the Section 341 meeting. The new requirement began phasing in nationwide
in January 2002.

      Petition Preparer Program

       Some non-attorneys charge debtors a fee for preparing bankruptcy
petitions. The UST Program has found that some petition preparers have
attempted to provide legal advice and services to debtors but lack the
necessary training and experience to provide these services in an adequate
and appropriate manner. Other petition preparers have defrauded or
charged excessive fees to debtors who are unaware of their rights both
inside and outside of the bankruptcy system. UST Program officials said that
fees unlawfully taken by petition preparers are usually small, but the victims
are destitute, distraught, and vulnerable to fraud schemes. Further,
UST Program officials said they have seen a proliferation of bankruptcy
petition preparers nationwide, although they have not specifically estimated
the extent of the problem. Section 110 of the Code provides the
UST Program with a new civil remedy for unscrupulous petition preparers.
The Code establishes requirements for petition preparers and penalties for
those who negligently or fraudulently prepare bankruptcy petitions. For
example, petition preparers must:

      •   sign the bankruptcy petition and include the preparer's name,
          address, and social security number;

      •   furnish a copy of the bankruptcy petition to the debtor;

      •   not file any document (bankruptcy petition) on behalf of a debtor;

      •   not use the word ''legal'' or any similar term in any
          advertisements, or advertise under any category that includes the
          word ''legal'' or any similar term;

      •   not collect or receive any payment from the debtor or on behalf of
          the debtor for the court fees in connection with filing the petition;
          and




                                      32
      •   within 10 days after the filing of a petition, file a declaration
          disclosing any fees charged to the debtor within 12 months prior
          to the filing of the case (the court will disallow and order the
          return to the bankruptcy trustee of any fees found to be in excess
          of the value of the services rendered by a petition preparer).

       If a petition preparer violates the above requirements, the court can
fine the preparer up to $500 per violation. For example, if a petition
preparer fails to comply with all six requirements in one petition, the
preparer can be fined as much as $3,000.

       In FY 2000, the UST Program awarded a $60,000 contract to develop a
database that would track petition preparers nationwide. The database was
to perform several functions: (1) monitor petition preparers who are
suspected of violating the Code; (2) improve timely and effective
enforcement techniques; (3) provide sample pleadings and other court
filings; and (4) provide the current status on pending actions. The database
is available to the entire UST Program because it is accessible through the
UST Program’s intranet website. We did not audit the petition preparer
tracking system because it was being implemented at the time of our audit.
However, it appears that the tracking system should be helpful to the
UST Program in monitoring petition preparers.

      UST Program Monitoring of Trustees

       Part of the UST Program’s oversight responsibilities includes
establishing controls to ensure that trustees and their employees do not
embezzle funds or misappropriate property from the bankruptcy estates
entrusted to them. In fact, most of the management controls implemented
by the UST Program have been designed to detect fraud committed by
trustees and trustees’ employees rather than by debtors or others. The
controls established by the UST Program to detect fraud committed by
trustees and their employees include: (1) review of the semiannual report,
which provides information on the Chapter 7 trustee’s financial
management, internal controls, organizational effort and legal administration
of cases administered by the trustee; (2) review of cash receipts and
disbursements reports; (3) review of the trustee final report (TFR), which
certifies that all assets have been liquidated and are properly accounted for
and that funds of the estate are available for distribution; (4) review of the
trustee final account (TDR), which certifies that funds have been distributed
to creditors; and (5) external audits and UST field examinations.

      UST Program officials told us that due to their success in monitoring
trustees, they have begun to reallocate resources to civil enforcement

                                      33
actions against debtor fraud and abuse. The UST’s monitoring efforts have
resulted in faster administration of Chapter 7 cases. For example, the
number of Chapter 7 cases open longer than three years declined from
22,404 in April of 1992 to 5,430 at the end of FY 2001. As a result, the
UST Program has streamlined its oversight procedures for Chapter 7 trustees
by: (1) reviewing trustees’ financial reports annually instead of a
semiannually; (2) eliminating the review of the trustee’s financial report if
scheduled for an OIG audit or UST field examination; and (3) conducting a
limited review of trustee final reports in cases where the gross receipts total
$5,000 or less. The additional resources that resulted from the streamlining
have been allocated to reviewing bankruptcy petitions for possible civil
enforcement actions.

      Over the past 15 years (1986 through 2001), the UST Program has
made 71 out of 7,564 total referrals to the U.S. Attorneys for embezzlement
by trustees or their employees with estimated loss totaling $18.8 million.
These 71 individuals were sentenced and ordered to repay $6.9 million
(37 percent) to the estates. The methods of detection for the 71 referrals
were:

     •   25 discovered by the UST,

     •   16 based on tips,

     •   9 discovered by trustees,

     •   5 discovered through audits, and

     •   16 unknown.

     Review of Semiannual Reports

      Chapter 7 trustees are accountable for all property of an estate
assigned to them, and the trustees are required to report on their
administration of the estate. The UST Program established a uniform
record-keeping and reporting system so that Chapter 7 trustees can properly
perform their duties and effectively administer cases. The system consists
of three reports: Individual Estate Property Record and Report (Form 1),
Cash Receipts and Disbursements Record (Form 2), and Summary Interim
Asset Report (Form 3). These reports were commonly known as the
“semiannual report” or the “180 day report” because trustees were required




                                      34
to submit the report semiannually to the UST.22 Each UST office must
review the semiannual reports within 60 days of receipt from a Chapter 7
trustee. The review concentrates on the trustee’s: diligence in identifying,
pursuing, and recovering assets for the benefit of creditors; timeliness in
closing cases; compliance with reporting and other requirements of the UST;
and performance of the trustee responsibilities. The UST office is required to
document its findings in writing and provide the findings to the trustee for
corrective action. Any major problems identified during the review process
are to be discussed with the trustee. Trustees who are deficient in their
administration of cases can be subject to a wide range of compliance
measures by the UST Program or the court.

      From the five offices we audited, we judgmentally selected the two
most recent semiannual reports for a total of 52 Chapter 7 trustees covering
the period January 2001 through December 2001. We found that of the
104 semiannual reports, 94 were reviewed by the UST offices. Five reports
were not submitted because the trustees filed a TFR for the only remaining
case they administered. According to one UST field office representative, if
a TFR is filed for the only remaining case administered, then the semiannual
report is not required because the UST will review the TFR. Another five
reports were not reviewed because there had been an on-site review or an
external audit.23

       USTs reviewed the 94 semiannual reports and reported findings to the
trustees for each report. The findings dealt primarily with administrative
matters such as incorrect dates, bonding amounts, and reference numbers.24
For 44 of the 94 reports, the regions noted fraud indicators such as
failure to secure sale of proceeds from an auctioneer; unauthorized use of a
professional; and failure to disclose a petition asset. The regional offices
followed up on each of the findings until corrective action was completed;
however, the regional offices had not discovered fraud through the
semiannual reports we sampled.

      We noted during our review that UST regional offices did not always
review the semiannual reports timely. USTs are required to review

       22
         Effective July 1, 2002, Chapter 7 trustees are required to submit these reports
annually unless the trustee is newly appointed, suspended from rotation, or the UST has a
concern or perceives a problem with the trustee’s administration of cases.
       23
         According to the UST Manual, USTs are not required to conduct a separate review
of the semiannual report for any period that is also the subject of a UST field examination or
an OIG audit.
       24
            Trustees use reference numbers to track assets listed on debtors’ schedules.

                                               35
semiannual reports within 60 days of receipt from the trustee. Timely
review can minimize the amount of loss if a trustee or a trustee’s employee
is engaging in embezzlement or other fraud. Twelve of the 94 reports were
reviewed from 1 to 45 days late or an average of 15 days late.

      Review of Final Reports and Final Accounts

      Chapter 7 trustees are required to prepare and file a TFR with the UST
for review before filing it with the court. The TFR certifies that all assets
have been liquidated and properly accounted for and that funds of the estate
are available for distribution. The TFR must be prepared when all monies
have been collected, all claims have been reviewed or determined by the
court, and the date has expired for creditors to file claims. Also, the TFR
summarizes all actions taken by the trustee to administer the case. The TFR
must:

      •     describe the disposition of each estate asset,

      •     report all financial transactions by the trustee,

      •     request payment of the trustee’s compensation and expenses
            and any unpaid professional fees and expenses,

      •     report the trustee actions on claims or their disposition,

      •     propose the distribution to creditors bankruptcy code, and

      •      include the original bank statements and original canceled
             checks received by the trustee during the case.
       USTs are required to conduct a thorough review of each TFR within
60 days of receipt from the trustee to assess whether the trustee has
properly and completely administered estate property. The UST is to
examine exemptions, abandonments, sales or other liquidations; ensure
inclusion of all necessary court orders; and verify the accuracy of
calculations. The UST also determines whether the trustee reviewed and
properly dealt with all claims. Deficiencies in the trustee's administration or
other problems or mistakes are to be brought to the trustee's attention for
corrective action. Upon completion of the review, the UST forwards the TFR
to the court.

       The UST Manual provides a checklist for USTs to use in reviewing
TFRs. Each regional office develops its own review procedures to comply
with the UST Manual. We compared the review procedures for the five


                                      36
regional offices we audited to the checklist and found that each of the five
regional offices did not implement at least one of the required TFR review
procedures. The following table shows the procedures that were not
implemented by the regional offices.


                 Procedures Omitted From the Audited UST
      Regions’ Checklists for the Review of Trustee Final Reports
                                                   Region
                 Procedure
                                           NY  PHL CHG      LA    ATL
Require original bank statements and                   X
canceled checks received by trustee
during the case.
Verify that the Section 341 meeting was                      X
held and concluded.
Review Schedule D for undisclosed           X          X     X
assets that were not listed on the
debtor's property schedules.
Ensure that the amount of money             X
realized for all assets liquidated or
turned over are properly recorded on
Form 1.
Trace all realizations reported on Form 1   X
to a corresponding deposit on Form 2.
Ensure that interest earned on estate                  X     X
bank accounts are reflected on Form 1
and Form 2.
Review all canceled checks to ensure            X      X
that the payee, endorsement, and
amount match the Form 2 and other
applicable documentation.
Verify any transfers of estate funds        X   X      X     X
between checking and savings accounts.
Subtract the disbursements from the             X                  X
receipts to determine that the balance
on hand, as reported by the trustee in
the final report, reconciles with the bank
statements from the estate's
depositories.
      Source: OIG review of UST regional offices’ checklists for TFR reviews

     UST regional office officials stated that although the procedures listed
above are not included on the TFR review checklists, the analysts are


                                           37
implementing the procedures. We were not able to verify whether or not
analysts carried out all the procedures due to the lack of documentation.
These procedures are crucial in identifying fraud indicators within a
bankruptcy case. For example, verifying any transfers of estate funds
between checking and savings accounts ensures that the funds were
transferred to the account stated in the report and not possibly to the
trustee’s private account. The USTs in the regional offices should include the
missing procedures in their review checklists to ensure that all bankruptcy
analysts and paralegals are implementing all required procedures. In
addition, regional offices implement the review procedures during field
examinations and semiannual reviews. However, the procedures are carried
out on a sample basis. The review of the final report provides the regional
offices with the opportunity to review a case in its entirety and discover any
errors or potential fraud that might have been missed during the semiannual
report reviews.

      USTs are required to review TDRs within 125 days after the entry of an
order allowing final compensation and expenses. The trustee must submit
to the UST the TDR certifying that the estate has been fully administered.
Along with the TDR, the trustee must submit the original bank statement(s)
showing a zero balance and all original canceled checks except those already
submitted with the TFR. The TDR is to be submitted to the UST, who must
review and file the TDR with the court within 30 days of receipt. The UST
review is to verify that all disbursements were made in accordance with the
trustee’s approved TDR. The USTs are to ensure that funds were issued to
appropriate parties and for the correct amount.

      To assess whether the review of TFRs and TDRs would detect fraud,
we judgmentally sampled 150 TFRs and TDRs filed for the period July 2000
to March 2002 within the five regional offices.25 Eighty-four trustees filed
the 150 TFRs and TDRs. In the Atlanta and Los Angeles regional offices, the
reviewers did not always formally document the review of the TFRs and
TDRs. Our review found that only 5 of the 150 reviews identified potential
fraud such as unexplained reimbursements, unapproved payment for
professional fees, and proposed distributions for unallowed claims. The
Philadelphia Regional Office discovered fraud indicators in four of the five
TFRs and did not file the TFRs with the court until the trustees took
corrective action. However, after investigation, the regional offices did not
verify fraud in any of these cases.


      25
         We selected 25 or 10 percent of the TFRs and TDRs filed, whichever was less,
during the period from the five regional offices.



                                           38
       Review of Cash Receipts and Disbursements Reports

      The UST Program requires debtors-in-possession26 and trustees for
Chapter 11 cases to submit monthly financial reports. According to the
UST Manual, these reports are intended to provide the USTs, court,
creditors, and other interested parties with reliable information on the
current status of a case. The financial reports are filed with both the UST
and the clerk of the court. The debtor is also required to provide the
financial reports to the chair of any creditor’s committee appointed to serve
in the case.

      The Cash Receipts and Disbursements Statement is one of the
financial reports. The statement shows the receipts and disbursements of
the debtor, as well as a separate cash account reconciliation statement for
each of its bank accounts such as the general account, tax escrow account,
and payroll account. The information included in the statement is to be
analyzed by the USTs to discover whether:

        •   the debtor is making unauthorized payments to professionals,

        •   the debtor is improperly paying pre-petition debtors,

        •   the debtor has sufficient cash flow to effectively reorganize,

        •   inordinate payments are being made for travel, entertainment,
            other employee benefits, and

        •   improper payments are being made by the debtor that will hamper
            the ability to reorganize.

      To assess the effectiveness of this management control in detecting
potential bankruptcy fraud among Chapter 11 trustees and
debtors-in-possession, we reviewed 40 cash receipts and disbursements
statements submitted to four of the five field offices27 between
February 2001 and March 2002. In each field office audited, analysts did not
formally document their review of cash receipts and disbursements
statements. Also, no documented findings resulted from the reviews in any
of the four field offices. According to UST Program representatives from

       26
         Debtors-in-possession are debtors who are in custody of the estate because the
court has not appointed a trustee in the case.
       27
         The control was not tested at the first location audited, but we added a testing
procedure at the subsequent four locations.

                                             39
each office, cash receipts and disbursements statements are primarily used
to calculate monthly fees owed to the UST Program by the bankrupt entity.
UST Program personnel also indicated that a more extensive review occurs;
however, we were unable to verify the extent of the review. As a result, we
were unable to assess the effectiveness of this management control for
detecting fraud among the Chapter 11 trustees and debtors-in-possession.

      Field Examination and External Audits

       Chapter 7 and Chapter 13 trustees are required to receive an audit or
a field examination over specified time frames. During an eight-year cycle
Chapter 7 trustees must receive at least one audit conducted by the OIG and
a field examination by the UST. The scope of the audits and field
examinations generally encompasses a review of the trustee’s: (1) case
reporting; (2) banking and bonding practices; (3) internal controls, including
segregation of duties; (4) automated data processing and file maintenance;
and (5) accounting for, securing, and administration of assets. Field
examinations and audit reports render one of three opinions: (1) adequate;
(2) adequate, except for certain deficiencies; or (3) inadequate. If a trustee
receives an inadequate opinion from a field examination or an OIG audit, the
UST Program will suspend the trustee from active rotation. Suspension from
active rotation means that the trustee no longer receives new cases.
Reinstatement of the trustee requires the approval of the EOUST Deputy
Director. Prior to reinstatement, the trustee must provide evidence that the
necessary corrective actions were implemented. The UST reviews the
trustee's response and makes an on-site visit to the trustee's office to verify
compliance, if necessary.

      Each Chapter 13 trustee is required to be audited by an independent
accounting firm annually. The audit may be supplemented by a
management review performed by the UST at the trustee's office. The
objective of the management review is to assess the trustee's performance
in specific areas such as case administration, case closing, claims review,
and personnel management. Whenever an audit report contains a
consequential finding or a series of less consequential findings, the trustee
must submit a written statement confirming that the deficiencies have been
corrected. Within three months, the UST is to visit the trustee’s office to
verify compliance.

      To assess the effectiveness of this management control, we reviewed
the case files for 210 Chapter 7 trustees within the five regional offices and
all 186 Chapter 13 trustees within the UST Program. Our review showed
that each of the 210 Chapter 7 trustees received a field examination and an


                                      40
OIG audit from 1994 to 2002. We also found that all 186 Chapter 13
trustees received an independent audit in annually. Therefore, the
UST Program has ensured that trustees are audited or reviewed.

       In the past 15 years, the USTs made five referrals to the FBI or
U.S. Attorneys as a result of external audits. Although the audits focus on
trustees’ administrative procedures, in a few instances the audits have
identified potential fraud.

Conclusions

       The USTs rely predominantly on trustees and tips from the public to
detect fraud by debtors, creditors, and others. While the UST Program has
some basis for viewing trustees as its first line of defense against fraud,
trustees may not have the time or inclination to rigorously investigate
debtors or others for potential fraud and may only detect the more obvious
and flagrant cases. In fact, we found numerous examples of fraud being
detected as a result of tips from persons other than the trustees. Although
tips are a valuable tool for detecting fraud, if the UST intends for trustees to
bear the main responsibility for fraud prevention and detection, the trustees
require more definitive guidance and training on the specific steps they are
required to take, and time and resources must be made available for that
purpose.

       Aside from relying on trustees and tips, the UST Program has begun to
address directly two nationwide problems – identity theft and unscrupulous
bankruptcy petition preparers. However, the extent of controls over other
types of fraud varies by region. In general, the UST Program concentrates
its efforts on controls over trustees and their employees rather than over
some of the higher risks for fraud. Through the deterrence of UST Program
monitoring and the integrity of the trustees themselves, only 71 (less than
one percent) of the 7,564 referrals made to law enforcement over the past
15 years related to trustees and their employees. Without ignoring the
possibility of trustee fraud, the UST Program needs to improve its own
efforts to control fraud by debtors, creditors, and others. For example, in
August 2001, the FBI stated that serial filings, and concealment of assets
were among the serious problems that deserve national investigation.
UST Program officials have not established management controls on a
national level to address these types of fraud. Also, we noted that local
UST Program efforts to control various types of fraud lack uniformity; some
regions take more vigorous action on certain types of potential fraud than do
others. The UST Program has begun to emphasize civil enforcement actions



                                       41
as well as referrals to law enforcement agencies where it has identified fraud
or abuse. This emphasis, along with the refocusing of resources from
less-likely trustee fraud, should contribute to meeting the goal of protecting
the integrity of the bankruptcy system.

Recommendations

      We recommend the Director, Executive Office for U.S. Trustees:

1. Establish uniform management control procedures within the UST offices
   to prevent and detect the more common and higher-risk types of fraud
   affecting the bankruptcy system, such as concealment of assets and
   serial filers, and ensure that resources are targeted accordingly.

2. Expand the existing data system to allow for detection of multiple
   bankruptcy filings nationwide.

3. Ensure uniform and complete reviews of Final Reports and Final Accounts.

4. Ensure that review procedures for cash receipts and disbursements
   reports are fully implemented.




                                     42
FINDING 2: PERFORMANCE MEASUREMENT SYSTEM

      The UST Program’s management information system is used
      to track over 7,500 fraud referrals made to law enforcement
      authorities between January 1988 and September 2001 and
      to measure UST Program performance. The information
      contained in the tracking system was not fully reliable
      because of: inaccurate, missing, or inconsistent data; lack
      of standard data protocols; and lack of review by
      UST Program personnel to ensure the accuracy and
      completeness of the data. In addition, the tracking system
      did not cover the UST Program’s own efforts to investigate
      bankruptcy fraud cases, and there was no national system
      to track civil enforcement actions. As a result, the
      UST Program was not in a position to conduct complete and
      accurate trend analyses of fraudulent activity to help target
      attention to the greatest risks. Also, the Department and
      the UST Program itself may rely on incomplete and
      inaccurate data to measure the UST Program’s performance
      and make funding and resource allocation decisions.

Tracking and Reporting Requirements

       According to the UST Manual, the EOUST is required to maintain a
database to track criminal fraud referrals made by the UST Program to
U.S. Attorneys, the FBI, or other law enforcement authorities.28 At the end
of each calendar quarter, the EOUST provides each UST with a report
detailing the referrals made by the region based on data submitted. The
referrals are divided into open and closed categories.

      Each region or district office tracks its referrals until the referral is
closed through prosecution or a decision by the U.S. Attorney to decline, or
not prosecute, the case. The UST region or office is also to submit an
updated report to the EOUST each quarter providing information on new
referrals and the status of all open referrals, paying particular attention to
those that are more than one year old.

     According to data from the Criminal Referral Tracking System, the
USTs made 7,564 fraud referrals to law enforcement from January 1988 to


      28
         The UST Program maintains a separate tracking system for criminal fraud referrals
because the referral information is confidential, whereas the Automated Case Management
System (ACMS) is accessible to all UST Program employees.

                                           43
September 2001.29 The EOUST uses the tracking system primarily for
performance measurement reporting and for internal management reports.
Based on the audit results presented later in this finding, the UST Program’s
data system is materially unreliable. However, we are reporting information
from the system as the only available data on fraud referrals, convictions
and potential loss. When system data is considered in context with other
available evidence, the conclusions in this report are valid.

      The 7,564 fraud referrals made between 1988, when tracking began,
and September 2001 resulted in 1,038 indictments and 837 convictions, or
an overall conviction rate of 11 percent of the referrals. In addition, the
UST Program identified about $11 billion in potential losses.30 The following
table shows by regional office the number of referrals, convictions,
conviction rates, and potential losses. The table shows considerable
variation in the number of referrals, convictions, and conviction rates.
Los Angeles had the most referrals at 2,834 and convictions at 164 —
although the region’s conviction rate was under 6 percent — and Cleveland
had the least referrals at 94 with none resulting in a conviction. Cedar
Rapids had the highest conviction rate, nearly 34 percent, although it
produced only 145 referrals. Fourteen of the 21 regions made referrals that
resulted in a conviction rate exceeding the UST Program average. According
to unverified data in the tracking system, Denver at a reported $10 billion
accounted for 93 percent of potential losses due to fraud.31 However, as
discussed in the upcoming section of this report dealing with the tracking
system, 72 percent of cases referred for prosecution did not identify the
amount of loss.




       29
          As discussed subsequently in this report, we found that the data system contains
errors and omissions. However, we are reporting information from the system because it is
the best overall data available on fraud referrals, convictions, and potential losses.
       30
           Potential losses are estimated by the UST’s office after the initial investigation.
The FBI agent or the AUSA assigned to the case identifies the actual loss to the estate after
further investigation. Also, another source for this entry may be a court order requiring
restitution.
       31
          We did not audit the Denver Regional Office and therefore did not verify the
$10 billion figure reported in the tracking system.

                                              44
               UST Program’s Data on Referrals, Convictions,
                      and Potential Loss by Regions
                         As of September 2001



     Regional          Number of    Number of Conviction       Potential
      Office            Referrals   Convictions   Rate           Loss
Boston, MA               410            43      10.49          $213,679,014
Manhattan, NY            404            46      11.39           $86,247,200
Philadelphia, PA         386            36       9.33           $30,960,472
Columbia, SC             278            34      12.23              $485,032
New Orleans, LA          130            24      18.46           $32,546,225
Dallas, TX               271            38      14.02           $11,955,602
Houston, TX              142            16      11.27           $14,164,478
Memphis, TN              359            47      13.09           $23,522,526
Cleveland, OH             94             0          0           $36,910,600
Indianapolis, IN         104            20      19.23            $4,159,833
Chicago, IL              205            38      18.54            $3,209,500
Cedar Rapids, IA         145            49      33.79           $96,040,778
Kansas City, MO          184            36      19.57            $8,362,554
Phoenix, AZ              135            29      21.48           $11,554,000
San Diego, CA            185            57      30.81            $2,571,261
Los Angeles, CA        2,834           164       5.79            $1,230,000
San Francisco, CA        243            35      14.40           $38,667,095
Seattle, WA              318            60      18.87           $17,846,741
Denver, CO               132            13       9.85       $10,051,356,500
Wichita, KS              159            14       8.81           $31,883,242
Atlanta, GA              446            38       8.52           $74,359,829
      Total         7,564             837      11.07       $10,791,712,482
       Source: EOUST




                                       45
Fraud Referrals to Law Enforcement

       The UST regional offices are responsible for making fraud referrals to
appropriate law enforcement agencies when there is evidence of a crime.
The UST regional offices receive allegations of criminal activity from many
sources, including third parties (creditors, ex-spouses, or ex-business
partners), trustees, judges, and law enforcement agencies. Regional offices
prefer to receive allegations in writing but may also accept complaints made
orally. Also, regional offices sometimes discover criminal activity based on
their review of debtors’ bankruptcy petitions, trustees’ operations, and
petition preparers. Regional offices conduct a preliminary investigation to
determine whether an allegation of fraud appears valid. The extent of the
investigation varies depending upon the type of potentially criminal activity
involved. For example, concealment of assets in bankruptcy proceedings
may involve less investigative effort than a complicated ponzi scheme32 to
defraud investors. The UST regional offices use a number of tools to aid
them in the investigation, such as reviewing on-line investigative public
records, verifying information on petitions and schedules with outside
agencies such as the Social Security Administration, reviewing court docket
information, and photographing concealed physical assets.

       If a regional office determines that fraud or another crime may have
been committed, it prepares a referral package and forwards the referral to
the U.S. Attorney, FBI, or other law enforcement agencies, if needed, for
investigation and potential prosecution. The level of detail in the referral
package varies by type of case. Also, some regions may not refer cases that
do not meet the U.S. Attorney’s threshold for prosecution either in terms of
dollar amounts or type of offense. For example, an AUST in one region
stated that only “good cases” are referred, meaning cases that are likely to
be accepted by the U.S. Attorney for prosecution. Other regions opt to refer
all cases. Two regional offices apply a three-level priority for referrals. The
two offices prepare detailed criminal referral packages for Levels I and II,
which are considered high priority because the referrals may meet the
U.S. Attorney’s minimum prosecutorial guidelines or involve special
circumstances such as trustee defalcation, misuse of funds by an attorney or
other professional, or other serious violations. Such higher-priority cases
are more likely to result in prosecution. The two offices prepare abbreviated
packages or a simple form for Level III criminal referrals, which are

      32
          A ponzi scheme (also known as a pyramid scheme) involves soliciting investments
by promising interest rates well above the market rate. Early investors recover their
investments with the promised rate of return from funds provided by new investors, and
then in turn encourage others to invest. When the scheme collapses before bankruptcy,
either a voluntary or involuntary Chapter 7 case is filed.

                                           46
considered low priority because the referrals do not meet the minimum
prosecutorial guidelines or lack strong evidence. Once the packages have
been prepared, the fraud referral data is entered into the region’s system.

      UST Program officials told us that criminal fraud prosecutions have
been hampered by a lack of investigative resources, primarily from the FBI.
The officials stated that after about a 6-month moratorium on bankruptcy
fraud investigations by the FBI in 2001, the UST Program persuaded the FBI
to once again investigate fraud referrals. The FBI had agreed to resume
fraud investigations, but the events of September 11, 2001 caused the FBI
to divert resources to counterterrorism-related efforts. The officials stated
that FBI resources for fraud investigations remain limited.

Criminal Referral Tracking System

      The EOUST uses the quarterly reports submitted by the regions to
update the Criminal Referral Tracking System. The regional offices submit
the data on spreadsheets designed by the EOUST. The EOUST performs a
limited review of the 21 spreadsheets to ensure that the data fields are
properly formatted so the spreadsheets can be downloaded into the EOUST’s
tracking system. However, the EOUST does not verify that the data is
accurate, complete, or consistent. An EOUST staff member stated that the
regions are responsible for ensuring the integrity of the data as the regions
maintain the supporting documentation.

      Our review of the Criminal Referral Tracking System determined that
the system is materially unreliable as a result of missing, inconsistent, and
inaccurate data and lack of standard data entry protocols. In addition, the
tracking system does not include data on the UST Program’s efforts to
investigate bankruptcy fraud cases prior to referring the case to law
enforcement. Although the tracking system provides the only consolidated
data available on fraud referrals nationwide, the data in the UST Program’s
fraud referral tracking system is of limited use due to omissions and errors.

       The tracking system contains 33 data fields. Some data fields are
more critical than others for UST Program management and performance
measurement. The EOUST captures data such as the date of the criminal
referral, type of allegation, type of chapter, subject of the referral, type of
subject, amount of the potential loss, date of the indictment, date of the
conviction, and the statute of limitations. A complete listing of the 33 data
fields is included in Appendix 8.




                                       47
      Our review identified missing and inconsistent data for 19 of the
33 data fields in the tracking system, including fields that are vital to
managing the UST Program and measuring performance such as the type of
fraud, the classification of person committing the alleged fraud, indictments
and convictions, and the amount of loss due to fraud. Because of these
weaknesses in the data, the tracking system is not as effective a
management tool as it could be with more reliable data. Appendix 9
provides a complete listing of the data problems we found. Examples of the
problems follow.

      •     Regional offices used over 2,000 descriptions to identify the type of
            fraud. The EOUST did not have a standard data entry protocol for
            the data field and therefore the regional offices used numerous
            descriptions to identify fraud allegations. The regional offices used
            U.S. Code citations, narrative descriptions, acronyms, and
            abbreviations to describe the allegation. For example, the
            database contained numerous descriptions for concealment of
            assets such as concealment asset; conceal property; concealment;
            CA; C; conceal transfer; and 152 (fraud/concealment).

      •     For 3,465 cases (46 percent), a subject code was not entered.
            The subject code identifies the classification of the individual who is
            the subject of the referral such as debtor, creditor, debtor
            attorney, or trustee. This information is needed to determine the
            type of individuals committing bankruptcy fraud.

      •     For 321 cases33 out of 1,038, an indictment code was not entered.
            The indictment code identifies the offense(s) for which a defendant
            is indicted. For these cases, the regions only included the date of
            the indictment and not the code for the specific offense. The
            indictment code is an important data field because it is required for
            reporting the outcome of the referral. In those cases where
            indictment information was included, the regions used 238
            descriptions. The regions entered the number of offenses, the
            U.S. Code citation, a narrative description, or some variation of the
            three to identify the indictment code. There was no consistency
            with the way the data was reported.




      33
           This number represents four percent, but not all cases result in an indictment.



                                              48
       •    For 276 cases34 out of 837, a conviction code was not entered into
            the system. The conviction code identifies the offense(s) for which
            a defendant is convicted. The regions included the date of the
            conviction but not a conviction code for these cases. The
            conviction code is an important data field because it is also
            required for reporting the outcome of the referral. In addition,
            there were 305 different conviction descriptions included in the
            tracking system. As with the indictment code, the regions entered
            the number of offenses, the U.S. Code citation, a narrative
            description, or some variation of the three to identify the conviction
            code. Again, there was no consistency with the way the data was
            reported.

       •    For 5,472 cases (72 percent), losses due to fraud were not
            identified. Although in some instances the regional offices may not
            be able to determine the loss, such information is important to
            include in the referral whenever possible because some
            U.S. Attorneys have established prosecutorial guidelines including a
            dollar loss threshold for bankruptcy fraud cases. For example, an
            Assistant U.S. Attorney stated that her office does not prosecute
            bankruptcy fraud cases that do not have a minimum of $50,000 in
            losses unless the case involves a high profile fraud with multiple
            victims. Because the responsible UST is aware of the prosecutorial
            guidelines, it makes every effort to identify the amount of loss in
            its criminal referrals. Specifically, this particular regional office
            identified the amount of loss in 69.5 percent of the cases it
            referred to law enforcement. In contrast, another regional office
            with a large number of fraud referrals rarely identified the loss
            amount. This regional office has a policy of identifying the amount
            of loss only if obtained from an outside source. However, the
            Assistant U.S. Attorney stated that her office has established a
            dollar loss threshold for prosecuting bankruptcy fraud cases but
            has not disclosed the threshold to the UST regional office.

       •    For 7,554 cases (99 percent), the date for the statute of limitations
            was not entered. None of the 21 regional offices always included
            the statue of limitations for these cases. The statue of limitations
            for most bankruptcy-related offenses is five years starting from the
            date the crime is committed, with the exception of concealment of
            assets. Concealment of assets is a continuing offense, and the
            five-year statute does not begin until the debtor receives a

       34
         This number represents nearly four percent, but not all cases result in an
indictment and a conviction.

                                             49
          discharge of his or her debts or a discharge is denied. The regional
          offices need to be aware of the statute of limitations for the cases
          referred so that the cases can be properly closed. But more
          importantly, the regional offices need to be aware of the statute of
          limitations to follow up with the U.S. Attorneys when the date is
          approaching, especially for those cases that are of particular
          interest to regional offices.

      •   For 1,172 cases (15 percent), the subject’s name for the referral
          was not entered into the system. We found that 17 of the
          21 regional offices failed to include the subject’s name. Again, we
          are aware that in some instances the identity of the subject may
          be unknown, especially in identity theft cases. However, if the
          information is available it should be included in the tracking system
          because failure to disclose the name could result in duplicate
          referrals.

      •   For 1,839 cases (24 percent), the bankruptcy chapter filed by the
          debtor was not entered into the system. We found that none of
          the 21 regional offices always identified the chapter for these
          cases. This information is readily available to regional personnel
          through the UST Program’s ACMS or the bankruptcy courts.

       These problems occurred mainly because the EOUST did not establish
protocols for entering the data into the tracking system and did not monitor
the quality of the data submitted by the regional offices. The regional offices
independently determine the type of information that should or should not
be included in the data fields. Therefore, the referral data was inconsistent.
Also, the regional offices did not make a distinction if information not
included was missing or unknown. As a result of the weaknesses in the
tracking system, the UST Program is hampered in its ability to follow up on
referrals, to perform meaningful trend analyses of fraudulent activity to
ensure that resources are focused on the most serious and prevalent fraud
and abuse problems, and to accurately measure UST Program performance.

       UST Program officials have stated that no one within the bankruptcy
community has a true sense of how pervasive fraud is within the bankruptcy
system. The UST Program is in the best position to provide accurate data on
the extent of detected bankruptcy fraud because most allegations are
identified by or reported through the 95 UST Program offices. However, due
to the limitations of its tracking system, the UST Program does not currently
have complete and reliable data on the fraud identified in the bankruptcy
system.


                                      50
       UST Program officials are aware of the limitations of the tracking
system and acknowledge the need for improvements. These officials stated
that their goal is to ensure that all referrals are accurate, properly
researched and supported, and lead to prosecution and conviction. The
officials stated that in reviewing the data system they determined that some
data fields are not useful for program management or performance
measurement. Consequently the UST Program plans to revamp and
streamline the data system. Further, the officials pointed out that they must
rely on the U.S. Attorney’s offices or the courts to provide key data on the
results of the referrals. Subsequent to the completion of our audit fieldwork,
the UST Program began taking a number of actions to improve its data
system, including issuing protocols to the field offices and placing the system
under the supervision of a Chief Information Officer.

Regional Offices’ Referral Data

       Each quarter the regional offices send data on their fraud referrals to
the EOUST so that the data can be downloaded into the Criminal Referral
Tracking System. To determine the accuracy of the data submitted by the
regional offices, we judgmentally selected a sample of referrals made by the
five regional offices from FY 1999 through 2001. As stated in Finding 1, our
sample size totaled 302 referrals made by the five regional offices. Where
possible, we reviewed the case file for each of the 302 referrals. The case
files varied widely in size depending on the nature of the allegation and the
complexity of the investigation.

      Our review of the supporting documentation for the 302 fraud referrals
at the regional level found that in 102 of 302 cases (nearly 34 percent) at
least one data field was inaccurately completed. We could not verify data
for another 27 cases (about 9 percent) due to missing case files. The
following table shows the result of our review by region.




                                      51
                    Accuracy of the Fraud Referral Data
                                FYs 1999 to 2001

                                           Inaccurate
                                                or
                         Accurate          Incomplete          No Case
      Region               Data               Data              Files    Total
  New York                  24                   20               4       48
  Philadelphia              21                   17               3       41
  Chicago                   22                   12              15       49
  Los Angeles               56                   26               4       86
  Atlanta                   50                   27               1       78
       Total               173                 102               27       302
      Source: Case files maintained at the five field offices audited.

      The five regional offices entered erroneous data or failed to enter
required data for 102 referral cases. For example, in a few cases the
regions entered the debtor as the subject of the referral when in fact the
supporting documentation showed that the subject was a petition preparer,
an attorney, or the individual could not be identified. In another example,
the regional office determined that a debtor illegally transferred and
concealed estate property, which resulted in a $1.5 million loss. However,
the region did not include in the tracking system the name of the subject,
the amount of loss, or the type of fraud.

       Referral data was inaccurate primarily because regional offices did not
review the data to ensure its accuracy prior to submission to the EOUST. In
one regional office the tracking system is maintained on the region’s shared
computer drive. Each of the five field offices within the region is responsible
for entering its own criminal referral data into the spreadsheet. No one at
the regional level is assigned to review criminal referral data to ensure that
it is accurate and consistent prior to submitting the data to the EOUST.
Although the specific data elements may vary in importance, the fact that
some elements are inaccurate or missing undermines the reliability of the
UST Program’s overall fraud referral tracking system as discussed previously
in the section of this report on the national tracking system. The
UST Program may not be able to determine the extent of known fraud in the
bankruptcy system without ensuring a reliable tracking and management
system; reviews of the referral data by regional offices would help ensure
the data is accurate and complete.




                                            52
Data on Bankruptcy Fraud Investigations

       As discussed previously, the Code (28 USC 586, 18 USC 3057, and
11 USC 1106) requires UST Program personnel to refer allegations of
bankruptcy fraud to law enforcement authorities. Depending upon the
region, the investigations are either conducted by field office or regional
office personnel. In one of the regional offices we audited, a separate unit
(Fraud Unit) was established to centrally manage bankruptcy fraud. The
unit was responsible for:

     •   reviewing all new complaints of criminal activity;

     •   entering complaints into the region’s database tracking system;

     •   investigating complaints for possible referral to law enforcement;
         and

     •   preparing referrals, if needed.

       The usefulness of the Criminal Referral Tracking System is limited
because it does not demonstrate the extent and success of the
UST Program’s direct efforts to detect and investigate bankruptcy fraud. The
EOUST designed the system to track only those cases that have been
referred to law enforcement authorities. The EOUST did not design the
tracking system to capture data on investigations conducted by
UST Program personnel, nor did it require that regional offices track this
data. We found that four of the five regional offices we audited did not track
the investigations they conducted unless a referral was made to law
enforcement authorities. Also, these offices did not always maintain files for
the cases that were investigated but not referred to law enforcement. The
files were usually destroyed because the regional offices did not see a need
for the information and wanted to conserve storage space. As a result,
these offices could not document the extent of their efforts to investigate
bankruptcy fraud.

       Tracking UST investigations and outcomes could aid the UST Program
in allocating resources. The resources needed to conduct the investigations
can be extensive depending on the complexity of the case. For example, a
case involving a stolen social security number, which most regional offices
have encountered, would typically take about two weeks to investigate.
However, a complex ponzi scheme would require about six months. One
UST stated that resources required to investigate such cases are not taken
into account for budgeting and staffing needs for regional offices. The


                                      53
current budget model is based on the number of bankruptcy cases that are
assigned to the regions.

       The UST Program was aware that it did not have an accurate measure
of its efforts to investigate and detect bankruptcy fraud. In October 2001,
the EOUST required that regional offices track the number of criminal
investigations that were initiated, including those that did not result in a
referral to law enforcement. The request was made as part of the EOUST’s
Significant Accomplishment Report35 for the period covering October 1, 2001
through March 30, 2002. The Significant Accomplishment Report identifies
the UST Program’s efforts in civil enforcement, criminal fraud referrals, and
other significant legal issues. The report, issued in May 2002, showed that
the UST Program had initiated 961 criminal investigations during the
semiannual period and that 550 (57 percent) investigations resulted in a
referral to law enforcement. Tracking the criminal investigations would be
useful to the UST Program for measuring its efforts to investigate and detect
fraud, and the Criminal Referral Tracking System could be modified to
include both investigations and referrals to avoid duplication of effort and to
help ensure data accuracy.

       In an effort to enhance its anti-fraud efforts, the UST Program’s
FY 2002 budget allocated $1 million to establish a Bankruptcy Fraud Team
serving the 11 judicial circuits plus the Washington, D.C. area. The team is
to consist of 12 attorneys who are responsible for identifying bankruptcy
fraud and supporting the prosecutorial efforts of federal law enforcement
authorities. According to the former Acting Deputy Director, one attorney
position would be assigned to Washington, and the remaining 11 positions
would be assigned to regional offices. He stated that a decision had not
been made on allocating the 11 positions among the UST regions. As of
May 2002, the positions had not been filled. A more comprehensive and
accurate tracking system would have helped provide a basis for allocating
these additional resources.

      Lastly, although the UST Program has begun to emphasize civil
enforcement actions as an alternative or as a supplement to criminal fraud
referrals, there is no nationwide system to track such actions or to compile
performance data. Instead, the regions have developed their own civil
enforcement tracking systems. Some regions have established multiple
systems for the various types of civil enforcement actions taken.



       35
         Each regional office is required to submit a quarterly Significant Accomplishment
Report to the EOUST, which is intended to highlight the Program’s achievements.

                                            54
Use of the Data for Performance Measurement

      The UST Program prepared a Performance Plan for FY 2002 and
FY 2003, and incorporated the plan into its budget submission. The
UST Program established a performance goal to ensure that parties adhere
to the standards of the law and to police for embezzlement, fraud, and other
abuses. To meet the performance goal, the UST Program developed several
performance indicators. The performance indicators for FY 2002 and
FY 2003 are shown in the following table.




                                     55
                             FY 2002 and 2003
                          Performance Indicators
                                             FY 2002                           FY 2003
          Performance Indicator               Target                            Target
Number of criminal referrals               No Target                        No Target
Number of convictions                      No Target                        No Target
Number of non-panel trustees               Not Measured                     385
administering cases
Percentage of motions per Section 707      Not Measured                     60 percent
granted by the Bankruptcy Court, cases
dismissed a/
Percentage of motions per 707 that         Not Measured                     60 percent
resulted in conversions
Percentage of inquiries pursued per        Not Measured                     60 percent
Section 707 that results in withdrawal,
conversion, or revision that brings the
debtor into compliance with court
requirements
Percentage of complaints to deny discharge Not Measured                     60 percent
per Section 727 granted by the Bankruptcy
Court b/
Percentage of inquiries pursued per        Not Measured                     60 percent
Section 727 that brings the debtor into
compliance with court requirements
Percentage of enforcement actions pursued Not Measured                      60 percent
per Section 110 that resulted in
withdrawal, stipulation, order to show
cause, or sanctions c/
Percentage of inquires pursued per Section Not Measured                     60 percent
110 that resulted in voluntary compliance
Source: FY 2002 and 2003 USTP Budget Request

Notes:
         a/
           Section 707 (a) of Title 11 addresses dismissal of bankruptcy cases if debtors cause
unreasonable delays that are detrimental to creditors, fail to pay bankruptcy filing fees or
charges, or fail to file required documentation requested by trustees or USTs. Section 707
(b) includes substantial abuse of the bankruptcy system, e.g. the debtor’s debts are
primarily consumer debts and the debtor has an ability to repay.
        b/
           Section 727 of Title 11 allows trustees, creditors, and the USTs to object to the
discharge if debtors failed to comply with bankruptcy code such as concealing assets,
making false statements, or making false claims.
        c/
          Section 110 of Title 11 addresses penalties for non-attorneys who negligently and
fraudulently prepare bankruptcy petitions.




                                              56
      In accordance with the Department’s overall policy, the UST Program
did not establish targets for the number of criminal referrals and convictions
but instead reported data on a prior-year basis. The Department issued a
policy letter in February 1999 stating that numerical targets would not be
established for performance indicators relating to law enforcement activities
such as arrests, indictments, convictions, and seizures. The Department
created this policy out of concern that such targets could be seen as “bounty
hunting.” However, the policy does allow components to collect and report
on these law enforcement activities on a prior-year basis. The FY 2003
performance plan showed that in FY 2001, the UST Program made
586 referrals to law enforcement and 45 referrals resulted in a conviction.
However, the referral data is extracted from the Criminal Referral Tracking
System maintained by the EOUST, which we have found materially
unreliable due to missing, inaccurate, and inconsistent data. As a result,
Congress, the UST Program, and other decision-makers may rely on
inaccurate and incomplete data to measure the UST Program’s performance
and to make funding decisions.

Conclusions

      The data on fraud referrals and outcomes in the EOUST’s Criminal
Referral Tracking System is not fully reliable due to inaccurate, incomplete,
and inconsistent data entry and a lack of monitoring by the EOUST and the
regional offices. Further, the system lacks standard protocols for entering
data, and the data is not adequately verified before submission. The
weaknesses in the data system casts doubt on the ability of the UST
Program and others to accurately measure the UST Program’s performance.
The system’s limitations also affect the UST Program’s ability to analyze
trends in fraud and allocate resources accordingly.

Recommendations

      We recommend the Director, Executive Office for U.S. Trustees:

   5. Redesign the Criminal Referral Tracking System so that it tracks UST
      investigations as well as referrals made to law enforcement authorities
      and use the system for trend analyses of the types of fraud and
      caseloads both nationally and regionally.

   6. Establish data entry protocols for the Criminal Referral Tracking
      System to ensure that the data is complete and consistent.

   7. Require regional offices to verify criminal fraud referral data for


                                      57
   accuracy, completeness, and consistency prior to submitting the data
   to the EOUST.

8. Require the EOUST’s staff to spot check fraud referral data submitted
   by the regional offices to help ensure completeness, uniformity, and
   accuracy.

9. Establish a system or modify an existing system to accurately track
   civil enforcement actions nationally and to compile performance data
   on the civil enforcement aspect of the UST Program.




                                 58
                                                                     APPENDIX 1


             OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

     The objectives of the audit were to:

     •     assess the management controls implemented in UST offices to
           identify and eliminate fraud and misconduct by private trustees,
           debtors, and others; and

     •     assess compliance with the Government Performance and Results
           Act as it relates to bankruptcy fraud.

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
included tests and procedures necessary to accomplish the objectives.
However, the UST Program has reimbursed us for auditing Chapter 7
trustees. Nonetheless, we consider ourselves to be independent and do not
believe that our reimbursement arrangements with the UST Program have
impaired this audit.36

      Generally, the audit focused on the UST Program’s efforts to detect
and prevent fraud and abuse in bankruptcy cases from September 1988
through May 2002. We performed audit fieldwork at the EOUST in
Washington and at UST regional offices in Atlanta, Chicago, Los Angeles,
New York, and Philadelphia. These five regional offices were selected
because they collectively made up the majority (56 percent) of the reported
referrals to law enforcement and provided a cross section of the UST
Program’s bankruptcy fraud and abuse control procedures and practices.

     To accomplish the audit objectives, we performed the following tasks:

     •     reviewed applicable laws, UST Program policies, procedures,
           organization charts, and mission statements;




     36
          The amount of reimbursement for 166 audits in FY 2002 was $1,293,000.

                                           59
•   reviewed prior audit reports and studies by the Department and the
    General Accounting Office on related issues;

•   reviewed budgetary and contracting documents;

•   interviewed the EOUST’s personnel in the Director’s Office, Office of
    Review and Oversight, Office of Research and Planning, and Office
    of Administration;

•   interviewed 40 UST Program personnel in the five regional offices
    including: USTs, AUSTs, Bankruptcy Analysts, Trial Attorneys,
    Paralegals, Regional Bankruptcy Analysts, and Fraud Coordinators.
    We also interviewed six non-UST Program personnel including
    Assistant U. S. Attorneys, a Special Assistant to a U.S. Attorney,
    FBI Special Agents, and a Postal Inspector.

•   reviewed pending bankruptcy legislation;

•   reviewed the National Criminal Referral Tracking System, the
    Trustee and Employee Embezzlement database, the Pending
    Inquiries of Trustees and Employees of Trustees database, and the
    Section 110 Tracking System;

•   reviewed case file information for 302 criminal referrals;

•   reviewed 117 performance evaluations for 97 Chapter 7 and
    20 Chapter 13 trustees;

•   reviewed supporting documentation for 104 semiannual report
    reviews;

•   reviewed supporting documentation for 92 Trustee Final Reports
    (TFRs) and 61 Trustee Distribution Reports (TDRs);

•   reviewed supporting documentation for monthly operating reports;

•   reviewed 24 prior OIG audit reports, 14 independent audit reports,
    and 15 UST field examinations; and

•   reviewed training documentation for trustees and UST Program
    personnel.




                                 60
       We reviewed the UST Program’s management controls over fraud and
abuse in the bankruptcy system but did not independently attempt to
identify cases of fraud. We did not evaluate the regional offices’ civil
enforcement action plans, nor did we interview private trustees.




                                   61
                                           APPENDIX 2

        ABBREVIATIONS


ACMS     Automated Case Management System

AUST     Assistant United States Trustee

EOUST    Executive Office for United States Trustees

FBI      Federal Bureau of Investigation

IRS      Internal Revenue Service

MPS      Management and Planning Staff

OIG      Office of the Inspector General

TDR      Trustee Distribution Report

TFR      Trustee Final Report

USC      United States Code

UST      United States Trustee




                62
                                                                APPENDIX 3

                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

      We have audited the UST Program’s management controls over
bankruptcy fraud. The audit was conducted in accordance with Government
Auditing Standards.

      As required by the standards, we tested selected records and
documentation to obtain reasonable assurance about the UST Program’s
compliance with laws and regulations that, if not complied with, we believe
could have a material effect on the process. Compliance with laws and
regulations applicable to the bankruptcy fraud process is the responsibility of
the UST Program’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. Specifically, we conducted our tests against the relevant
portions of:

      Title 28 of United States Code, Section 586

      •   requires USTs to notify the United States Attorney of matters,
          which may constitute a crime under the laws of the United States
          and, upon request, assist the United States Attorney in carrying out
          prosecutions.

      Title 18 of United States Code, Section 3057

      •   directs private trustees to report suspected violations of federal
          criminal law to the United States Attorney.

      OMB Circular A-11, Part 2

      •   covers the preparation and submission of budget Strategic Plans,
          Annual Performance Plans, and Annual Program Performance
          Reports.

      The Government Performance and Results Act of 1993

      •    directs agencies to develop multiyear strategic plans, annual
           performance plans, and annual performance reports.



                                       63
      Except for those issues cited in the Findings and Recommendations
section of the report, our tests indicated that for those items reviewed, the
UST Program complied with the laws and regulations referred to above.
With respect to those items not tested, nothing came to our attention that
caused us to believe that the UST Program’s management did not comply
with the laws and regulations cited above.




                                      64
                                                        APPENDIX 4

           UNITED STATES TRUSTEE PROGRAM
         REGIONAL AND FIELD OFFICE LOCATIONS

Region       Regional Office                      Field Office
                 Location                          Location
  1      Boston, MA                  1   Portland, ME
                                     2   Worcester, MA
                                     3   Manchester, NH
                                     4   Providence, RI
                                     5   Boston, MA
  2      Manhattan, NY               6   New Haven, CT
                                     7   Manhattan, NY
                                     8   Albany, NY
                                     9   Buffalo, NY
                                    10   Central Islip, NY
                                    11   Rochester, NY
                                    12   Utica, NY
  3      Philadelphia, PA           13   Wilmington, DE
                                    14   Newark, NJ
                                    15   Philadelphia, PA
                                    16   Harrisburg, PA
                                    17   Pittsburgh, PA
  4      Columbia, SC               18   Baltimore, MD
                                    19   Greenbelt, MD
                                    20   Columbia, SC
                                    21   Alexandria, VA
                                    22   Norfolk, VA
                                    23   Richmond, VA
                                    24   Roanoke, VA
                                    25   Charleston, WV
  5      New Orleans, LA            26   New Orleans, LA
                                    27   Shreveport, LA
                                    28   Jackson, MS
  6      Dallas, TX                 29   Dallas, TX
                                    30   Tyler, TX
  7      Houston, TX                31   Houston, TX
                                    32   Austin, TX
                                    33   San Antonio, TX
                                    34   Corpus Christi, TX


                               65
Region      Regional Office                      Field Office
               Location                            Location
  8      Memphis, TN               35   Lexington, KY
                                   36   Louisville, KY
                                   37   Memphis, TN
                                   38   Chattanooga, TN
                                   39   Nashville, TN
  9      Cleveland, OH             40   Detroit, MI
                                   41   Grand Rapids, MI
                                   42   Cleveland, OH
                                   43   Cincinnati, OH
                                   44   Columbus, OH
  10     Indianapolis, IN          45   Peoria, IL
                                   46   Indianapolis, IN
                                   47   South Bend, IN
  11     Chicago, IL               48   Chicago, IL
                                   49   Madison, WI
                                   50   Milwaukee, WI
  12     Cedar Rapids, IA          51   Cedar Rapids, IA
                                   52   Des Moines, IA
                                   53   Minneapolis, MN
                                   54   Sioux Falls, SD
  13     Kansas City, MO           55   Little Rock, AR
                                   56   Kansas City, MO
                                   57   St. Louis, MO
                                   58   Omaha, NE
  14     Phoenix, AZ               59   Phoenix, AZ
  15     San Diego, CA             60   San Diego, CA
                                   61   Honolulu, HI
  16     Los Angeles, CA           62   Los Angeles, CA
                                   63   Santa Ana, CA
                                   64   Riverside, CA
                                   65   Woodland Hills, CA
                                   66   Santa Barbara, CA
  17     San Francisco, CA         67   San Francisco, CA
                                   68   Oakland, CA
                                   69   Fresno, CA
                                   70   Sacramento, CA
                                   71   San Jose, CA
                                   72   Las Vegas, NV
                                   73   Reno, NV


                              66
Region       Regional Office                      Field Office
                  Location                         Location
  18     Seattle, WA                74   Anchorage, AK
                                    75   Boise, ID
                                    76   Great Falls, MT
                                    77   Eugene, OR
                                    78   Portland, OR
                                    79   Seattle, WA
                                    80   Spokane, WA
  19     Denver, CO                 81   Denver, CO
                                    82   Salt Lake City, UT
                                    83   Cheyenne, WY
  20     Wichita, KS                84   Wichita, KS
                                    85   Albuquerque, NM
                                    86   Oklahoma City, OK
                                    87   Tulsa, OK
  21     Atlanta, GA                88   Miami, FL
                                    89   Orlando, FL
                                    90   Tallahassee, FL
                                    91   Tampa, FL
                                    92   Atlanta, GA
                                    93   Macon, GA
                                    94   Savannah, GA
                                    95   San Juan, PR




                               67
                                                    APPENDIX 5

      NATIONAL BANKRUPTCY TRAINING INSTITUTE
       UST PROGRAM PERSONNEL FRAUD TRAINING
             MAY 2000 TO FEBRUARY 2002


                                        Employees
                             Eligible    Attended   Remaining
Region        Job Title     Employees    Training   Employees
  1      AUST                      5           3           2
  1      Attorney                  5           5           0
  1      Paralegal Spec.         10            3           7
  1      Bankruptcy Analyst        7           1           6

  2      AUST                    9            6           3
  2      Attorney               15           13           2
  2      Paralegal Spec.        15            1          14
  2      Bankruptcy Analyst     18            6          12

  3      AUST                    6            3           3
  3      Attorney               21           17           4
  3      Paralegal Spec.        15            6           9
  3      Bankruptcy Analyst     15            7           8

  4      AUST                    9            8           1
  4      Attorney               13           10           3
  4      Paralegal Spec.        19            9          10
  4      Bankruptcy Analyst     15            7           8

  5      AUST                    4            2           2
  5      Attorney                4            3           1
  5      Paralegal Spec.         5            2           3
  5      Bankruptcy Analyst      7            2           5

  6      AUST                    3            1           2
  6      Attorney                5            4           1
  6      Paralegal Spec.         3            2           1
  6      Bankruptcy Analyst      8            4           4


                                 68
                                          Employees
                               Eligible    Attended   Remaining
Region       Job Title        Employees    Training   Employees

  7      AUST                      5            3           2
  7      Attorney                  6            6           0
  7      Paralegal Spec.           8            3           5
  7      Bankruptcy Analyst        4            3           1

  8      AUST                      6            4           2
  8      Attorney                  9            9           0
  8      Paralegal Spec.          11            6           5
  8      Bankruptcy Analyst        7            6           1

  9      AUST                      6            6           0
  9      Attorney                 12            9           3
  9      Paralegal Spec.          14            9           5
  9      Bankruptcy Analyst       12            5           7

  10     AUST                      3            3           0
  10     Attorney                  7            7           0
  10     Paralegal Spec.           7            3           4
  10     Bankruptcy Analyst        8            5           3

  11     AUST                      5            4           1
  11     Attorney                  7            6           1
  11     Paralegal Spec.           9            4           5
  11     Bankruptcy Analyst        5            5           0

  12     AUST                      5            4           1
  12     Attorney                  3            1           2
  12     Paralegal Spec.           6            1           5
  12     Bankruptcy Analyst        6            3           3

  13     AUST                      5            3           2
  13     Attorney                  6            5           1
  13     Paralegal Spec.           6            3           3
  13     Bankruptcy Analyst        5            3           2


                                   69
                                      Employees
                           Eligible    Attended   Remaining
Region      Job Title     Employees    Training   Employees
  14   AUST                      2           0           2
  14   Attorney                  5           5           0
  14   Paralegal Spec.           5           3           2
  14   Bankruptcy Analyst        5           2           3

  15   AUST                    2            2           0
  15   Attorney                4            3           1
  15   Paralegal Spec.         5            2           3
  15   Bankruptcy Analyst      4            3           1

  16   AUST                    5            3           2
  16   Attorney               16           10           6
  16   Paralegal Spec.        11            7           4
  16   Bankruptcy Analyst     18            8          10

  17   AUST                    9            4           5
  17   Attorney               14           13           1
  17   Paralegal Spec.        12            9           3
  17   Bankruptcy Analyst     14            3          11

  18   AUST                    8            7           1
  18   Attorney                8            7           1
  18   Paralegal Spec.        12            3           9
  18   Bankruptcy Analyst      9            5           4

  19   AUST                    4            2           2
  19   Attorney                3            3           0
  19   Paralegal Spec.         6            3           3
  19   Bankruptcy Analyst      6            3           3

  20   AUST                    5            4           1
  20   Attorney                7            6           1
  20   Paralegal Spec.         7            4           3
  20   Bankruptcy Analyst      5            2           3

  21   AUST                   11            9           2

                               70
                                      Employees
                           Eligible    Attended   Remaining
Region      Job Title     Employees    Training   Employees
  21   Attorney                16           13           3
  21   Paralegal Spec.         17           11           6
  21   Bankruptcy Analyst      17            8           9
              Total           701          421         280




                               71
                                                                APPENDIX 6

            UNITED STATES TRUSTEE MANUAL
       BANKRUPTCY FRAUD SCHEMES AND INDICATORS

 Type of Fraud                    Fraud Indicators
   Scheme
Bust-out         •   Company with a short life
                 •   Well-established company with good credit recently
                     taken over by a new group who attempts to hide the
                     change in ownership
                 •   Fraudulent financial statements
                 •   False credit references
                 •   No receivables listed on schedules (cash basis
                     operation)
                 •   Scheduled inventory is very low
                 •   Warehouse full of high volume, low cost items
                 •   Disproportionate liabilities to assets
                 •   Mainly temporary employees
                 •   Fake social security/taxpayer identification numbers
                     used to obtain credit
                 •   Leased equipment
                 •   Few local creditors; unsecured debt is primarily
                     comprised of trade creditors
                 •   Lulling letters to creditors (mail/wire fraud)
                 •   No corporate bank account or existing account has no
                     funds
                 •   Cash paid up front to rent location
                 •   Same individuals involved in previous "failed
                     companies"
                 •   Unusual banking activities (check kiting, bank fraud,
                     money laundering, structured transactions)
                 •   Schedules and statement of financial affairs incomplete
                     or not filed
                 •   Person unfamiliar with debtor's operations testifies at
                     Section 341 meeting
                 •   Taxes not paid
                 •   The same attorney repeatedly represents these types
                     of debtors
Bleed-outs       •    Recent changes of ownership/new players
                 •    People with no prior involvement in business have
                      money transferred to them, both pre-petition and
                      during bankruptcy
                 •    Changes in accounting or cash flow practices for no
                      apparent business reason
                 •    Payment stream to a certain creditor suddenly balloons
                 •    Sudden decrease in inventory; sharp increase in aged
                      receivables
                 •    Inventory, equipment, and machinery are sold a short
                      time before the case is filed


                                   72
                  •   Capital infusions of corporate officers are renamed
                      "loans" and are paid back
                  •   Excessive salaries and bonuses
                  •   Complicated asset transfers with no purpose
                  •   Depleted pension funds
                  •   Leveraged buyouts
                  •   Employee contributions for health care and pension
                      funds are diverted and converted for personal use by
                      the debtor
                  •   New company is formed just prior to or immediately
                      after the bankruptcy case is filed
                  •   The same attorney repeatedly represents these types
                      of debtors
Ponzi (Investor   •   Numerous contacts from investors/creditors about the
Fraud) Scheme         case
                  •   List of creditors, schedules, and statement of financial
                      affairs show mostly unsecured debt owed to numerous
                      individuals
                  •   No prospectus or the prospectus provided is untruthful
                  •   Numerous complex investment vehicles, such as
                      limited partnerships
                  •   Enormous management or general partnership fees to
                      insider controlled companies
                  •   Monthly operating reports show income is from
                      individuals with little or no other outside income
                  •   Lulling letters to investors explaining that the delay in
                      their interest/loan/deal payment is outside the control
                      of the manager and, if they will be patient or continue
                      to send money, the problems will be resolved
Health Care And   •   Numerous complaints of poor or non-existent services
Welfare Fraud     •   Adverse publicity by media about operations
                  •   Investigations by regulators of operations
                  •   Lack of normal books and records
                  •   Unlicensed shelters, rehabilitation facilities, halfway
                      houses, etc.
                  •   Deductions from employee paychecks for health care
                      coverage, but funds not remitted to the insurance
                      company
Rent/Equity       •   Failure to make mortgage payments
Skimming          •   Transfer of entire or fractional interest to property
                      shortly before foreclosure
                  •   Multiple fractional interests in real property listed on
                      the schedules
                  •   Frequent quit claim deeds transferring interest in the
                      property
                  •   Numerous "doing business as" designations and
                      individuals in the chain of the title
                  •   Use of mail drop boxes as company business
                      addresses
                  •   Post petition transfers into a bankruptcy estate
                  •   New corporation formed holding a single asset
                  •   Schedules amended to dramatically increase number


                                     73
                             of pieces of real property owned by the debtor
                        •    Same individual files claims in large number of
                             unrelated cases. Proofs of claim do not have
                             supporting documentation attached
                        •    Debtor complains about the unusual and menacing
                             harassment by a creditor, and counsel takes no court
                             action against the creditor
                        •    Unusual provisions in cash collateral orders
                        •    Agreements by the debtor to modify the automatic
                             stay to permit foreclosure without any assertion that
                             the lender is under secured
Concealment And         •    Claims of theft or large gambling losses just before
False Statements             bankruptcy
                        •    Inability to account for property listed on insurance
                             policies or personal financial statements in existence
                             before bankruptcy
                        •    Incomplete schedules - frequent amendments in
                             response to creditor questions
                        •    Unexplained change in financial circumstances
                        •    Debtor shows no ownership interest in residence
                        •    Tax returns not filed for the relevant years
                        •    Unsecured debt does not reconcile with assets listed,
                             e.g., large number of medical bills, but no lawsuit
                             listed
                        •    Failure to list prior bankruptcies
                        •    Significant amendments to list of creditors after
                             Section 341 meeting
                        •    Complaints by ex-employees, ex-spouses, or
                             ex-partners about hidden or omitted assets
                        •    Fifth Amendment claimed on any issue
                        •    Fire or other disaster occurs (of particular importance
                             if arson is suspected)
                        •    Transfer of property to relatives or friends just before
                             bankruptcy
                        •    Sudden appearance of loans or loan repayments to
                             friends or relatives with little or no documentation
                        •    Sudden change of attorney for no apparent reason.
                        •    Debtor "confused" about his/her assets and financial
                             affairs
Collusive Involuntary   •   Debtor who is subject to a 180-day bar on refiling has
Bankruptcy                  an involuntary filed against him/her
                        •   Creditors have recently acquired the claim asserted in
                            the involuntary
                        •   "Professional" creditors who reappear regularly in
                            suspicious sounding deals
                        •   Same attorney is involved in the voluntary and
                            involuntary bankruptcies
                        •   Creditors are "former" long-term business associates of
                            the debtor's insider
                        •   Insider has filed several suspicious bankruptcy cases
                            for corporate or partnership entities in a short period of


                                           74
                          time
Straw                 •    Pre-existing, undisclosed relationship between the
Buyer/Fictitious           debtor and the straw buyer
Bidder                •    Sale terms are structured to prefer one bidder
                      •    Inadequate or no effort is made to locate other
                           purchasers. Advertising is not placed in appropriate
                           newspapers or journals to reach potential purchasers
                      •    Unusually high bid-protection or break-up fees
                      •    High price offered, but broad terms allow the
                           purchasers substantial set-off rights
                      •    Purchaser is represented by counsel with close ties to
                           the debtor's counsel
                      •    Debtor interferes with potential purchasers due
                           diligence efforts
                      •    Short notice requested on sale because of
                           "emergency" situation
Serial Filers         •   Debtor has filed a high number of cases in a short
                          period of time
                      •   Debtor does not disclose prior bankruptcy cases
                      •   Debtor uses different counsel to file each case
                      •   Chapter 13 cases never completed because of failure
                          to fund plan
                      •   Debtor had been prohibited from filing a case pursuant
                          to 11 U.S.C. § 109(g)
Fraudulent Petition   •    Pro se petition where debtor says no one assisted
Mills                      him/her, but the debtor is clearly unfamiliar with the
                           bankruptcy system
                      •    A pro se petition is filed and the debtor denies filing
                           bankruptcy
                      •    Debtor fails to attend Section 341 meeting
                      •    "Face Sheet" filing with a single creditor listed, usually
                           the mortgagee or the landlord
                      •    Debtor facing eviction, foreclosure, or repossession
                           notice
                      •    Pattern of pro se debtors with identical paperwork as
                           to form, style, and general content
                      •    Pattern of complaints from mortgagees or landlords
                      •    Debtors or others have been solicited by petition mills
                           that stress stopping evictions
                      •    Complaints by debtor that he/she has been making
                           rent/mortgage/car payments to a third party
                      •    Advertising in budget papers and using flyers to
                           advertise bankruptcy and divorce assistance at a low,
                           fixed fee
                      •    Imply that attorneys are supervising/approving the
                           service
                      •    Request payment of filing fee in installments
                      •    Assets or liabilities are not scheduled
                      •    Failure to properly fill out or file schedules
                      •    Use of Chapter 7 when Chapter 13 is clearly feasible.




                                          75
                                                                        APPENDIX 7

        HANDBOOKS FOR CHAPTERS 7 AND 13 TRUSTEES
           SECTION 341(A) MEETING OF CREDITORS
            REQUIRED STATEMENTS/QUESTIONS37

1.     State your name, social security number, and current address for the
       record.

2.     Have you read the Bankruptcy Information Sheet provided by the
       United States Trustee?

3.     Did you sign the petition, schedules, statements, and related
       documents you filed with the court? Did you read the petition,
       schedules, statements, and related documents before you signed them
       and is the signature your own?

4.     Please provide your picture ID and social security number card for
       review.

            a. If the documents are in agreement with the petition, a
               suggested statement for the record is:

              “I have viewed the original driver’s license (or other type of
              original photo ID) and original social security card (or other
              original document used for proof) and they match the name and
              social security number on the petition.”

            b. If the documents are not in agreement with the petition, a
               suggested statement for the record is:

              “I have viewed the original social security card (or other original
              document used for proof) and the number is 000-00-0000. It
              does not match the number on the petition. I have instructed
              the debtor (or debtor’s counsel) to file an amended petition by
              [date], serve all creditors and the standing trustee, and send a
              ‘Notice of Correction of Social Security Number in Bankruptcy


       37
         The first ten statements/questions are required. The standing trustee shall ensure
the debtor answers the substance of each of the ten questions on the record. The standing
trustee may exercise discretion and judgment in varying the wording of the
statements/questions, if the substance of the questions is covered.

                                            76
            Filing’ and a copy of the amended petition to the three major
            credit reporting agencies and to the United States Trustee.”

         c. When the documents do not match the petition, the standing
            trustee shall attempt to ascertain why. The standing trustee
            also shall ask if the debtor has ever obtained credit or benefits,
            such as Medicaid or employment, using the social security
            number or any other social security number.

         d. If the debtor did not bring proof of identity and social security
            number, the standing trustee needs to determine why.

5.    Are you personally familiar with the information contained in the
      petition, schedules, statements and related documents?

6.    To the best of your knowledge, is the information contained in the
      petition, schedules, statements, and related documents true and
      correct?

7.    Are there any errors or omissions to bring to my, or the court’s,
      attention at this time?

8.    Are all of your assets identified on the schedules?

9.    Have you listed all of your creditors on the schedules?

10.   Have you filed bankruptcy before using the social security number you
      presented today, the social security number on the petition or any
      other social security number not issued by the Social Security
      Administration? (If so, the standing trustee must obtain the case
      number and the discharge information to determine the debtor(s)
      discharge eligibility.)




                                      77
     HANDBOOKS FOR CHAPTERS 7 AND 13 TRUSTEES
        SECTION 341(A) MEETING OF CREDITORS
                   SAMPLE GENERAL QUESTIONS
            (TO BE ASKED WHEN DEEMED APPROPRIATE)

1.   Do you own or have any interest whatsoever in any real estate?

     If owned: When did you purchase the property? How much did the
     property cost? What are the mortgages encumbering it? What do you
     estimate the present value of the property to be? Is that the whole
     value or your share? How did you arrive at that value?

     If renting: Have you ever owned the property in which you live and/or
     is its owner in any way related to you?

2.   Have you made any transfers of any property or given any property
     away within the last one-year period (or such longer period as
     applicable under state law)? If yes: What did you transfer? To whom
     was it transferred? What did you receive in exchange? What did you
     do with the funds?

3.   Does anyone hold property belonging to you? If yes: Who holds the
     property and what is it? What is its value?

4.   Do you have a claim against anyone or any business? If there are
     large medical debts, are the medical bills from injury? Are you the
     plaintiff in any lawsuit? What is the status of each case and who is
     representing you?

5.   Are you entitled to life insurance proceeds or an inheritance as a result
     of someone’s death? If yes: Please explain the details. If you
     become a beneficiary of anyone’s estate within 6 months of the date of
     your bankruptcy petition was filed, the trustee must be advised within
     10 days through your counsel of the nature and extent of the property
     you will receive. FRBP 1007(h)

6.   Does anyone owe you money? If yes: is the money collectible? Why
     haven’t you collected it? Who owes the money and where are they?

7.   Have you made any large payments, over $600, to anyone in the past
     year?




                                     78
8.    Were federal income tax returns filed on a timely basis? When was
      the last return filed? Do you have copies of the federal income tax
      returns? At the time of the filing of your petition, were you entitled to
      a tax refund from the federal or state government? If yes: Inquire as
      to amounts.

9.    Do you have a bank account, either checking or savings? If yes: In
      what banks and what were the balances as of the date you filed your
      petition?

10.   When you filed your petition, did you have:

      a.    Any cash on hand?
      b.    Any U.S. Savings Bonds?
      c.    Any other stocks or bonds?
      d.    Any Certificates of Deposit?
      e.    A safe deposit box in your name or in anyone else’s name?

11.   Do you own an automobile? If yes: What is the year, make, and
      value? Do you owe any money on it? Is it insured?

12.   Are you the owner of any cash value life insurance policies?
      If yes: State the name of the company, face amount of the policy,
      cash surrender value, if any, and the beneficiaries.

13.   Do you have any winning lottery tickets?

14.   Do you anticipate that you might realize any property, cash or
      otherwise, as a result of a divorce or separation proceeding?

15.   Regarding any consumer debts secured by your property, have you
      filed the required Statement of Intention with respect to the
      exemption, retention, or surrender of that secured property? Please
      provide a copy of the statement to the trustee. Have you performed
      that intention?

16.   Have you been engaged in any business during the last six years? If
      yes: Where and when? What happened to the assets of the business?

17.   Have you seen a credit counselor in the last year?




                                      79
      HANDBOOKS FOR CHAPTERS 7 AND 13 TRUSTEES
         SECTION 341(A) MEETING OF CREDITORS
                      SAMPLE QUESTIONS
            (WHEN DEBTORS ARE ENGAGED IN BUSINESS)

1.    Who was responsible for maintaining financial records?

2.    Which of the following records were maintained?

      a.   Cash receipts journal
      b.   Cash disbursements journal
      c.   General journal
      d.   Accounts receivable ledger
      e.   Accounts payable ledger
      f.   Payroll ledger
      g.   Fixed asset ledger
      h.   Inventory ledger
      i.   General ledger
      j.   Balance sheet, income statement, and cash flow statements

3.    Where are each of the foregoing records now located?

4.    Who was responsible for preparing financial statements?

5.    How often were financial statements prepared?

6.    For what periods are financial statements available?

7.    Where are such financial statements now located?

8.    Was the business on a calendar year or fiscal year?

9.    Were federal income tax returns filed on a timely basis? When was
      the last return filed?

10.   Do you have copies of the federal income tax returns? Who have the
      copies?

11.   What outside accountants were employed within the last three years?

12.   Do you have copies of the reports of such accountants? Who have the
      copies?



                                     80
13.   What bank accounts were maintained within the last three years?

14.   Where are the bank statements and canceled checks now located?

15.   What insurance policies were in effect within the last year? What kind,
      and why?

16.   From whom can copies of such insurance policies be obtained?

17.   If the business is incorporated, where are the corporate minutes?

18.   If the debtor owed any outstanding accounts receivables? From
      whom? Are they collectible?

19.   Is there any inventory, property, or equipment remaining?




                                     81
                                                      APPENDIX 8

             THE EOUST’S DATA ELEMENTS FOR THE
            CRIMINAL REFERRAL TRACKING SYSTEM

1.    Disposition (O=Open or C=Closed)
2.    Region
3.    Office
4.    Judicial District
5.    Referral Number
6.    District Court Case Number
7.    Referral Date
8.    Referred By
9.    Bankruptcy Number
10.   Debtor Name
11.   Chapter
12.   Allegations
13.   Loss
14.   Subject Name
15.   Subject Aliases
16.   Subject Code (e.g. trustee, attorney, debtor)
17.   Referred To
18.   AUSA Assigned
19.   Agent Assigned
20.   Date Declined
21.   Current Status
22.   Date of Action/Response
23.   Description of Action/Response
24.   Comments
25.   Indictment Date
26.   Indictment Code
27.   Conviction Date
28.   Conviction Code
29.   Statue of Limitation
30.   Prison Time (Sentence)
31.   Probation
32.   Fine/Restitution
33.   Community Service




                                     82
                                                        APPENDIX 9

                       OIG ANALYSIS OF
                MISSING AND INCONSISTENT DATA


   Data Element                      Deficiencies
Office                    •   For 5,196 cases, the office that made the
                              criminal referral was not identified.
Referral Number           •   For 3,486 cases, a referral number was
                              not used.
Referral Date             •   For 524 cases, the referral date was not
                              identified.
Referred By               •   For 2,985 cases, the source of the
                              referral was not identified.

                          •   There were 77 different descriptions use
                              to identify the source of the referral such
                              as narrative descriptions, acronyms, and
                              abbreviations.
Bankruptcy Number         •   For 1,542 cases, the bankruptcy number
                              was identified.
Debtor Name               •   For 1,168 cases, the debtor name was
                              not identified.
Chapter                   •   For 1,839 cases, the type of chapter filed
                              by the debtor was not identified.
Allegations               •   For 358 cases, the type of allegation was
                              not identified.

                          •   To identify the type of allegation, there
                              were 2,005 different descriptions such as
                              narrative descriptions, acronyms,
                              abbreviations and multiple allegations
                              included in the same data field.
Loss                      •   For 5,472 cases, the loss was not
                              identified.
Subject Name              •   For 1,172 cases, the subject of the
                              criminal referral was not identified.




                               83
   Data Element                     Deficiencies
Subject Code             •   For 3,465 cases, the subject code was not
                             identified.

                         •   There were 119 different subject codes
                             used because of the inconsistent use of
                             acronyms and abbreviations.
AUSA Assigned            •   For 6,148 cases, AUSA assigned to the
                             cases were not identified.
Date Declined            •   For 15 cases, the date the criminal
                             referral was declined was not identified.
Current Status           •   For 872 cases, the current status was not
                             identified.

                         •   There were 432 different descriptions
                             used to provide the current status. This
                             occurred because of the inconsistent use
                             narrative descriptions, acronyms, and
                             abbreviations.
Date Indictment          •   For 18 cases, the date of the indictment
                             date was identified.
Indictment Code          •   For 321 cases, the indictment code was
                             not identified.

                         •   There were 238 different indictment codes
                             used to describe type of indictment. This
                             occurred primarily because of the
                             inconsistent use criminal code citations,
                             narrative descriptions, and the number of
                             offenses.
Date of Conviction       •   For 15 cases, the conviction date was not
                             identified.
Conviction Code          •   For 276 cases, the conviction code was
                             not identified.

                         • There were 305 different conviction codes.
                           This occurred primarily because of the
                           inconsistent use criminal code citations,
                           narrative descriptions, and the number of
                           offenses.
Statute of Limitations   • For 7,554 cases, the date for the statute
                           of limitations was not identified.

                              84
     APPENDIX 10




85
86
87
88
89
90
91
92
93
94
95
96
97
98
99
100
101
102
103
                                                      APPENDIX 11

  OFFICE OF THE INSPECTOR GENERAL, AUDIT
DIVISION, ANALYSIS AND SUMMARY OF ACTIONS
      NECESSARY TO CLOSE THE REPORT

      In its response to the draft report, the EOUST stated that the
audit report clearly identifies the need for enhanced and
comprehensive efforts to identify fraud and abuse in the bankruptcy
system, and provides several recommendations that will improve
EOUST’s ongoing activities in this critical area. Further, the EOUST
stated that it largely concurs with our findings and analyses.

       The EOUST also stated that despite the current Administration’s
efforts to provide the program with additional resources, it is not
realistic to expect that it will enjoy financial and personnel resources
sufficient to uncover “all” civil and criminal fraud and abuse in the
bankruptcy system. We indicate on page 29 of the report that the UST
Program will never be able to prevent or identify all instances of fraud
and abuse. Therefore, the UST Program should focus its resources on
higher-risk types of fraud most affecting the bankruptcy system.

      Additionally, the EOUST stated that it is important to recognize
that the UST Program’s authority is limited to civil enforcement and is
not authorized to conduct criminal investigations or to prosecute cases
without express authority from the United States Attorney. We agree
and stated on page 7 of the report that the USTs are responsible for
taking legal action (civil) to enforce the requirements of the
Bankruptcy Code and referring cases for investigation and criminal
prosecution. Further, we indicated on page 46 that criminal
investigations and prosecution is the responsibility of law enforcement
agencies and the U.S. Attorneys Office.

      Finally, the EOUST requested some minor technical changes to
the report. We made the requested changes except for the following:

Page 11: “The second category, providing $82.4 million or 55
percent of the UST Program’s funding, is quarterly fees paid by the
Chapter 11 debtors. The other $7.4 million or 5 percent comes from
miscellaneous compensation associated with Chapters 12 and 13 debt
collection receipts, and refunds.”




                               104
      Technical Correction 8: “The second category, providing
      $82.5 million or 54 percent of the UST Program’s funding, is
      quarterly fees paid by the Chapter 11 debtors. The other $7.4
      million or 5 percent comes from miscellaneous compensation
      associated with Chapters 12 and 13 debt collection receipts.”

      Explanation for Technical Correction 8: The dollar amount
      and corresponding funding percentage were corrected for
      accuracy. Additionally, the source of funding was corrected.

      OIG Response: Based on the Program’s fiscal year 2003
      budget, we adjusted the amount to $82.5 million. However, the
      percentage remains at 55 percent. The budget includes refunds
      as a source of funding.

Page 56: FY 2002 and 2003 Performance Indicators Chart.

     Technical Correction 16: Substitute the Performance
     Resources Table included as Attachment 2 to this Appendix.

     Explanation for Technical Correction 16: The chart depicted
     is not current.

     OIG Response: Change not made because the chart was
     current for our audit period.

The status of the report’s recommendations follows.

Recommendation Number:

1. Resolved. This recommendation is resolved based on the EOUST’s
   agreement to issue guidance, provide technical assistance and
   training, and coordinate multi-jurisdictional litigation through the
   designation of civil enforcement coordinators. The guidance will
   include a description of the best methods to identify the most
   common forms of abuse. This recommendation can be closed when
   we received documentation of such guidance.

2. Resolved. This recommendation is resolved based the EOUST’s
   agreement to expand the ACMS system to allow for the detection of
   multiple bankruptcy filings. This recommendation can be closed
   when we received documentation that shows that the ACMS system
   can detect multiple bankruptcy fillings nationwide.


                              105
3. Resolved. This recommendation is resolved based on the EOUST’s
   agreement to revise or reissue guidance governing the review of
   final reports and accounts. This recommendation can be closed
   when we received documentation that shows guidance covering the
   review of final reports and accounts has been revised or reissued to
   ensure that the reviews are uniform and complete.

4. Resolved. This recommendation is resolved based on the EOUST’s
   agreement to reissue or revise guidance governing the review of
   Chapter 11 monthly operating reports. This recommendation can
   be closed when we receive documentation that shows guidance
   covering the review of Chapter 11 monthly operating reports has
   been revised or reissued to ensure the reviews are completed.

5. Resolved. This recommendation is resolved based on the EOUST’s
   agreement that the current Criminal Referral Tracking System was
   insufficiently reliable and stated that a new system will be designed
   to serve the purposes described in the recommendation. This
   recommendation can be closed when we receive documentation
   demonstrating that the new Criminal Referral Tracking System will
   track UST investigations, referrals made to law enforcement, and
   allow for trend analyses of the types of fraud and caseloads both
   nationally and regionally.

6. Resolved. This recommendation is resolved based on the EOUST’s
   agreement to establish data entry protocols for the Criminal
   Referral Tracking System. This recommendation can be closed
   when we receive documentation that the new Criminal Referral
   Tracking System has incorporated established data entry protocols.

7. Resolved. This recommendation is resolved based on the EOUST’s
   agreement to include within the new Criminal Referral Tracking
   System protocols that will require appropriate verification by
   regional offices. This recommendation can be closed when we
   receive documentation that requires regional offices to verify
   criminal referral data is accurate, complete, and consistent prior to
   submitting the data to the EOUST.

8. Resolved. This recommendation is resolved based on the EOUST’s
   agreement to include within the new Criminal Referral Tracking
   System protocols that will provide for periodic spot checks by
   EOUST staff. This recommendation can be closed when we receive



                               106
  documentation that requires the EOUST’s staff to spot check fraud
  referral data submitted by the regional offices.

9. Resolved. This recommendation is resolved based on the EOUST’s
   establishment of the Significant Accomplishments database that
   tracks civil enforcement actions performed in the field and by the
   Program. This recommendation can be closed when we received
   documentation demonstrating that the Significant Accomplishments
   database accurately tracks civil enforcement actions nationally and
   compiles performance data on the civil enforcement aspect of the
   UST Program.




                              107
